No. __________
IN THE

MONIQUE A. LOZOYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
APPENDICIES TO PETITION FOR A WRIT OF CERTIORARI

CUAUHTEMOC ORTEGA
Federal Public Defender
JAMES H. LOCKLIN *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-2929
Fax: 213-894-0081
Email: James_Locklin@fd.org
Attorneys for Petitioner
* Counsel of Record

Index
Appendix A: En Banc Panel Opinion of the United States Court of Appeals for
the Ninth Circuit (December 3, 2020) .............................................................. 1a
Appendix B: Order of the United States Court of Appeals for the Ninth Circuit
Granting Petition for Rehearing En Banc (December 20, 2019)................... 43a
Appendix C: Three-Judge Panel Opinion of the United States Court of Appeals
for the Ninth Circuit (April 11, 2019) ............................................................ 45a
Appendix D: Order of United States District Court for the Central District of
California Affirming Judgment of Magistrate Judge (September 8, 2017) .. 76a
Appendix E: Order of United States Magistrate Judge for the Central District
of California Denying Motion for Judgment of Acquittal (July 1, 2016) ...... 95a
Appendix F: Statutory Provisions...................................................................... 109a

2

Appendix A

App. 1a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 1 of 41

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MONIQUE A. LOZOYA,
Defendant-Appellant.

No. 17-50336
D.C. No.
2:16-cr-00598AB-1
OPINION

Appeal from the United States District Court
for the Central District of California
Andre Birotte, Jr., District Judge, Presiding
Submitted En Banc May 26, 2020 *
San Francisco, California
Filed December 3, 2020
Before: Sidney R. Thomas, Chief Judge, and M. Margaret
McKeown, William A. Fletcher, Jay S. Bybee, Sandra S.
Ikuta, Jacqueline H. Nguyen, Paul J. Watford, John B.
Owens, Mark J. Bennett, Daniel P. Collins and Kenneth K.
Lee, Circuit Judges.
Opinion by Judge Bennett;
Partial Concurrence and Partial Dissent by Judge Ikuta
*

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 2 of 41

2

UNITED STATES V. LOZOYA
SUMMARY **

Criminal Law
The en banc court affirmed a conviction for
misdemeanor assault within the special aircraft jurisdiction
of the United States, in a case in which the defendant, who
committed the assault on a commercial flight from
Minneapolis to Los Angeles, argued that venue in the
Central District of California was improper because the
assault did not occur in airspace directly above the Central
District.
The en banc court held that the Constitution does not
limit venue for in-flight federal crimes to the district sitting
directly below a plane at the moment a crime was
committed, and that venue thus “shall be at such Place or
Places as the Congress may by Law have directed.” U.S.
Const. art. III, § 2, cl. 3. The en banc court held that the
second paragraph of 18 U.S.C. § 3237(a) applies to federal
crimes committed on commercial aircraft within the special
aircraft jurisdiction of the United States, and that such crimes
may be prosecuted in the flight’s landing district.
Dissenting in part and concurring in the judgment, Judge
Ikuta, joined by Judges Collins and Lee, wrote that under the
correct venue statute, 18 U.S.C. § 3238, the trial for an
assault on a cross-country flight can be held only where the
defendant “is arrested or is first brought,” or where the
defendant resides.
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 3 of 41

UNITED STATES V. LOZOYA

3

COUNSEL
Hilary Potashner, Federal Public Defender; James H.
Locklin, Deputy Federal Public Defender; Office of the
Federal Public Defender, Los Angeles, California; for
Defendant-Appellant.
Nicola T. Hanna, United States Attorney; Lawrence S.
Middleton, Chief, Criminal Division; Karen E. Escalante,
Assistant United States Attorney, Major Frauds Section;
United States Attorney’s Office, Los Angeles, California;
for Plaintiff-Appellee.

OPINION
BENNETT, Circuit Judge:
Defendant Monique Lozoya committed an assault on an
airplane. She was traveling on a commercial flight from
Minneapolis to Los Angeles when she argued with another
passenger and slapped him in the face. Lozoya was
convicted of misdemeanor assault in the Central District of
California, where the plane landed. On appeal, Lozoya
argues that venue in the Central District was improper
because the assault did not occur in airspace directly above
the Central District. We hold that venue for in-flight federal
offenses is proper in the district where a plane lands, and
affirm Lozoya’s conviction.
FACTS AND PROCEDURAL BACKGROUND
On July 19, 2015, Lozoya and her boyfriend were flying
home to California from Minneapolis. Their Delta Airlines
flight to Los Angeles was scheduled for about three-and-a-

App. 4a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 4 of 41

4

UNITED STATES V. LOZOYA

half hours, the route taking them over Minnesota, Iowa,
Nebraska, Colorado, Utah, Arizona, Nevada, and California.
Lozoya wanted to sleep, but claimed the passenger
behind her, Oded Wolff, kept jabbing at his touchscreen
monitor attached to the back of her seat. Each jab startled
her awake. In the middle of the flight—Lozoya estimated an
hour before landing, her boyfriend about two hours, and a
flight attendant ninety minutes—Lozoya turned to Wolff,
who had just returned from the bathroom, and asked him to
stop banging on her seat. An argument ensued, and Lozoya
slapped Wolff’s face. Flight attendants intervened. After
the plane landed at LAX, Lozoya and Wolff went their
separate ways. Wolff reported the incident to the FBI, which
issued Lozoya a violation notice charging her with
misdemeanor assault within the special aircraft jurisdiction
of the United States. See 18 U.S.C. § 113(a)(5); 49 U.S.C.
§ 46506.
Lozoya’s bench trial took place in the flight’s landing
district, the Central District of California. After the
government rested, Lozoya moved for acquittal, claiming
the government had not established venue in the Central
District. See Fed. R. Crim. P. 29. The magistrate judge
presiding over the trial denied the motion and ruled that
venue was proper because the flight “came to an end” in the
Central District. Lozoya was convicted and sentenced to pay
a fine of $750. She then appealed to the district court, again
arguing that venue was improper in the Central District. The
district court found that venue was proper because the plane
had landed in the Central District and affirmed the
conviction. A divided three-judge panel of our court,
however, agreed with Lozoya that venue was improper and
reversed the conviction on that ground. United States v.

App. 5a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 5 of 41

UNITED STATES V. LOZOYA

5

Lozoya, 920 F.3d 1231, 1243 (9th Cir. 2019). We took this
case en banc.
We have jurisdiction under 28 U.S.C. § 1291 and review
de novo whether venue was proper in the Central District of
California. See United States v. Ruelas-Arreguin, 219 F.3d
1056, 1059 (9th Cir. 2000). “Venue is a question of fact that
the government must prove by a preponderance of the
evidence.” United States v. Lukashov, 694 F.3d 1107, 1120
(9th Cir. 2012).
DISCUSSION
The assault took place on a commercial flight in the
“special aircraft jurisdiction of the United States.” 49 U.S.C.
§ 46501(2). Decades ago, at the onset of the “age of jet
aircraft,” Congress recognized that crimes committed in the
skies raise difficult questions: “Although State criminal
statutes generally cover crimes committed on board aircraft
in flight over the State, the advent of high-speed, highaltitude flights of modern jet aircraft has complicated the
problem of establishing venue for the purposes of
prosecution. In some recent instances, serious offenses have
gone unpunished because it was impossible to establish to
any reasonable degree of accuracy the State over which the
crime was committed.” H.R. Rep. 87-958 (1961), reprinted
in 1961 U.S.C.C.A.N. 2563, 2564. Congress chose to
federalize certain offenses committed on airplanes,
including murder, sexual assault, and Lozoya’s crime—
simple assault. See id. at 2563; 49 U.S.C. § 46506.
Lozoya contends that venue is proper only in the federal
district over which the in-flight assault occurred, which was

App. 6a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 6 of 41

6

UNITED STATES V. LOZOYA

not the Central District.1 We reject that contention. Under
18 U.S.C. § 3237(a), venue is proper in the landing district,
here the Central District of California. Thus, we affirm
Lozoya’s conviction. 2
I. Constitutional Requirements
Criminal venue mattered to the Framers, who
complained in the Declaration of Independence that King
George transported colonists “beyond Seas to be tried.” The
Declaration of Independence, para. 21 (U.S. 1776). The
Framers designed a system that requires trial in the vicinity
of the crime, “to secure the party accused from being
dragged to a trial in some distant state, away from his
friends, witnesses, and neighborhood.” United States v.
Muhammad, 502 F.3d 646, 652 (7th Cir. 2007) (quoting
Joseph Story, Commentaries on the Constitution § 925
(Carolina Academic Press reprint 1987) (1833)).
The Constitution safeguards a criminal defendant’s
venue right in two places. The Venue Clause of Article III,
Section 2 provides: “The Trial of all Crimes, except in Cases
of Impeachment, shall be by Jury; and such Trial shall be
held in the State where the said Crimes shall have been
committed.” U.S. Const. art. III, § 2, cl. 3. The Sixth
1

It is undisputed that the assault happened before the plane entered
airspace above the Central District, but it is unclear which district was
below the plane during the assault.
2
We exercise our discretion to consider only this issue. See
Summerlin v. Stewart, 309 F.3d 1193 (9th Cir. 2002); see also Rand v.
Rowland, 154 F.3d 952, 954 n.1 (9th Cir. 1998) (en banc). Parts I and
II.A of the panel majority opinion, concerning the Speedy Trial Act and
waiver issues, United States v. Lozoya, 920 F.3d 1231, 1236–38 (9th Cir.
2019), are not affected by our en banc review and are not withdrawn.

App. 7a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 7 of 41

UNITED STATES V. LOZOYA

7

Amendment’s Vicinage Clause further requires that the
defendant be tried by an “impartial jury of the State and
district wherein the crime shall have been committed.” U.S.
Const. amend. VI. Under these two provisions, criminal
trials generally must take place in the same state and district
where the crime took place. But if the crime was “not
committed within any State,” the Constitution provides that
“the Trial shall be at such Place or Places as the Congress
may by Law have directed.” U.S. Const. art. III, § 2, cl. 3.
The Constitution does not discuss the airspace over the
several states. Nor did the Framers contemplate crimes
committed in the “high skies,” even as they granted
Congress the power to “define and punish Piracies and
Felonies committed on the high Seas.” U.S. Const. art. I,
§ 8, cl. 10. Lozoya’s crime would have been alien to the
Framers. It happened on an airplane flying almost 600 miles
an hour, five miles above the earth. And it occurred over
one of several states or districts, depending on the time of
the slap.
In Lozoya’s view, the Constitution requires trial in the
district over which the plane was flying at the exact moment
of the assault. Her crime was committed in the airspace
above a district, the argument goes, so that district was the
location of her crime. Implicit in this reasoning is an
interpretation of Article III and the Sixth Amendment that a
state or district includes the airspace above it for
constitutional venue purposes. Lozoya was not tried in the
flyover district but in the Central District of California,
where the plane landed and where she lived and worked.
Lozoya thus argues that venue was constitutionally improper
because her trial did not take place in the state and district
where her crime took place.

App. 8a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 8 of 41

8

UNITED STATES V. LOZOYA

We disagree.
Neither Article III nor the Sixth
Amendment says that a state or district includes airspace,
and there is, of course, no indication that the Framers
intended as such. 3 Indeed, the very purpose of the
Constitution’s venue provisions—to protect the criminal
defendant from “the unfairness and hardship to which trial
in an environment alien to the accused exposes him”—is
thwarted by limiting venue to a flyover district in which the
defendant never set foot. United States v. Johnson, 323 U.S.
273, 275 (1944).
For crimes committed on planes in flight, the
Constitution does not limit venue to the district directly
below the airspace where the crime was committed. And
thus venue “shall be at such Place or Places as the Congress
may by Law have directed.” 4 U.S. Const. art. III, § 2, cl. 3.

3

Our decision in United States v. Barnard, 490 F.2d 907 (9th Cir.
1973), does not help Lozoya’s argument. In Barnard, we interpreted
18 U.S.C. § 3237(a), which provides that offenses involving
transportation in foreign commerce may be prosecuted in “any district
from, through, or into which such commerce . . . moves.” Barnard
concluded that under the statute, a drug-smuggling plane moved
“through” a district when the plane flew over it, because “the navigable
airspace above that district is a part of the district.” 490 F.2d at 911.
Barnard did not purport to interpret Article III or the Sixth Amendment
in reaching that holding.
4
We are puzzled by the dissent’s baggage handler hypothetical, in
which a rogue baggage handler, “standing on the tarmac at Los Angeles
International Airport,” aims a laser at an aircraft during takeoff. Dissent
at 37. The dissent concedes that “the baggage handler’s offense was
committed in California, and because the Venue Clause’s exception for
offenses ‘not committed within any state’ is inapplicable, it must be tried
in California.” Dissent at 37 (emphasis added). We agree: the
hypothetical crime was committed in California; thus the Constitution
requires that it be tried in California. The inquiry ends there. Despite

App. 9a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 9 of 41

UNITED STATES V. LOZOYA

9

II. Statutory Requirements
18 U.S.C. § 3237(a) contains two paragraphs, each
covering a different type of offense. First, “any offense
against the United States begun in one district and completed
in another, or committed in more than one district, may be
inquired of and prosecuted in any district in which such
offense was begun, continued, or completed.” Id. Second,
“[a]ny offense involving . . . transportation in interstate or
foreign commerce . . . is a continuing offense and, except as
otherwise expressly provided by enactment of Congress,
may be inquired of and prosecuted in any district from,
through, or into which such commerce . . . moves.” Id.
Two of our sister circuits, the Tenth and the Eleventh,
have held that the second paragraph of § 3237(a) applies to
in-flight crimes because the crimes “took place on a form of
transportation in interstate commerce.” United States v.
Breitweiser, 357 F.3d 1249, 1253 (11th Cir. 2004)
(“Congress has provided a means for finding venue for
crimes that involve the use of transportation. The violations
of the statutes here [abusive sexual contact and simple
assault of a minor] are ‘continuing offenses’ under 18 U.S.C.
§ 3237.”); see also United States v. Cope, 676 F.3d 1219,
1225 (10th Cir. 2012). In both these cases, the court upheld
venue in the district where the airplane landed, rather than
requiring the government to show “exactly which federal
district was beneath the plane when [the defendant]

recognizing that Congress’s venue statutes do not apply when the
Constitution settles the issue, the dissent goes on to apply an inapplicable
statute and argues that it does not lead to the correct result. There is of
course no requirement to “reconcile” a hypothetical result under an
inapplicable statute. See Dissent at 38.

App. 10a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 10 of 41

10

UNITED STATES V. LOZOYA

committed the crimes.” Breitweiser, 357 F.3d at 1253; see
also Cope, 676 F.3d at 1225.
We join the Tenth and Eleventh Circuits and conclude
that the second paragraph of 18 U.S.C. § 3237(a) applies to
federal crimes committed on commercial aircraft within the
special aircraft jurisdiction of the United States. Lozoya’s
crime “involved” transportation in interstate commerce
under a plain meaning reading of the word “involve.” See
American Heritage Dictionary (5th ed. 2019) (defining
“involve” as “[t]o relate to or affect”). Not only did the
crime take place on a form of interstate transportation, the
assault is a federal offense only because it was committed
within the special aircraft jurisdiction of the United States.
See 49 U.S.C. § 46506. But for the interstate transportation,
Lozoya could not have committed this crime. An offense
whose very definition requires interstate transportation
certainly “involves” transportation in interstate commerce.
That the dissent disagrees with Congress’s broad
definition of “continuing offense” is of no import. The
dissent believes that a continuing offense should be defined
as “one which was committed in more than one state” or
locality. Dissent at 35–36. But that is simply not the
definition that Congress adopted in the second paragraph of
§ 3237(a), which provides that “[a]ny offense involving . . .
transportation in interstate or foreign commerce . . . is a
continuing offense.” 5 Rather, the dissent’s definition is
almost identical to the first paragraph of § 3237(a), covering
5
The dissent insists that our interpretation is “strained” and
characterizes it as the following: “[T]he majority has interpreted the
phrase ‘continuing offense’ in § 3237 to include any offense . . .
involving transportation in interstate or foreign commerce.” Dissent
at 36, 40. We note that is literally what the statute says.

App. 11a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 11 of 41

UNITED STATES V. LOZOYA

11

offenses “begun in one district and completed in another, or
committed in more than one district.” 18 U.S.C. § 3237(a);
see also United States v. Rodriguez-Moreno, 526 U.S. 275,
282 (1999). Here, we are not concerned with the first
paragraph but with the second. Under the second paragraph
of § 3237(a), venue was proper in the Central District of
California, through and into which the plane moved. 6
Our holding is consistent not only with the Tenth and
Eleventh Circuits’ decisions, but also with the near-universal
practice of landing district prosecution. For decades, and
since Congress federalized certain offenses committed in the
air, federal offenders have been prosecuted and tried in the
landing districts. Venue in the landing district is plainly
sensible: it is where arrests are made and witnesses
interviewed, and is often the defendant’s residence or travel
6
Where the Constitution does not mandate venue in a particular
district, Congress has broad latitude to define the locality of a crime. See,
e.g., 48 U.S.C. § 644a (providing that “all offenses and crimes
committed” on certain Pacific islands, including the Midway Islands,
Wake Island, Johnston Island, and Palmyra Island, “shall be deemed to
have been consummated or committed on the high seas on board a
merchant vessel or other vessel belonging to the United States”). The
dissent relies on United States v. Johnson, 323 U.S. 273 (1944), to
narrow Congress’s language in the second paragraph of § 3237(a). See
Dissent at 33–34. Johnson did not interpret the second paragraph of
§ 3237(a) because it did not exist when Johnson was decided. That
Congress wrote the second paragraph in response to Johnson does not
mean that the second paragraph must be limited by Johnson’s specific
context and discussion. And the Johnson Court did not require that
Congress adopt any particular definition. See Johnson, 323 U.S. at 275.
Further, the dissent’s analysis of Johnson contradicts the dissent’s own
argument that the second paragraph of § 3237(a) “defines a particular
category of offenses” that “fall within the more generally framed rule set
forth in the first paragraph.” Dissent at 34. If that were true, then
Congress would not have needed to add the second paragraph after
Johnson because both paragraphs would yield the same result.

App. 12a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 12 of 41

12

UNITED STATES V. LOZOYA

destination. In our research, we found examples of landing
district venue in every circuit except the D.C. Circuit (the
District of Columbia has no commercial airports), and
discovered no court that has prohibited venue in the landing
district. 7
By contrast, flyover prosecution is virtually unheard of,
for good reason. 8 To establish venue under Lozoya’s theory,
the government must determine exactly when the crime was
committed, use flight tracking sources to pinpoint the
plane’s longitude and latitude at that moment, and then look
down five miles to see which district lay below. Lozoya
dismisses the government’s concerns about the difficulty of
the task as “hyperbolic,” suggesting that the time of the
7
See, e.g., United States v. Jahagirdar, 466 F.3d 149 (1st Cir. 2006)
(sexual assault); United States v. Cohen, No. 07-cr-5561, 2008 WL
5120669 (2d Cir. Dec. 8, 2008) (sexual assault); United States v. Aksal,
638 F. App’x 136 (3d Cir. 2015) (sexual assault); United States v.
Jennings, 496 F.3d 344 (4th Cir. 2007) (sexual abuse of a minor); United
States v. Stewart, No. 02-CR-046, 2002 U.S. Dist. LEXIS 20220 (N.D.
Tex. Oct. 21, 2002) [5th Cir.] (sexual assault); United States v. Anderson,
503 F.2d 420 (6th Cir. 1974) (attempted manslaughter); United States v.
Barberg, 311 F.3d 862 (7th Cir. 2002) (sexual assault); United States v.
Kokobu, 726 F. App’x 510 (8th Cir. 2018) (per curiam) (simple assault);
United States v. Lozoya, No. 16-00598 (C.D. Cal. Sept. 8, 2017), rev’d,
920 F.3d 1231 (9th Cir. 2019); United States v. Johnson, 458 F. App’x
727 (10th Cir. 2012) (interference with flight crewmember and sexual
assault); United States v. Breitweiser, 357 F.3d 1249 (11th Cir. 2004)
(sexual abuse of a minor and simple assault).
8

We acknowledge that § 3237(a) theoretically allows venue not just
in the landing district, but also the takeoff district as well as the flyover
districts. But we are not aware of any cases where the government
prosecuted an in-flight crime in a flyover district with which the
defendant had no ties. And in the event that a choice of venue implicates
concerns about fairness or inconvenience, the defendant can request a
transfer of venue. See Fed. R. Crim. P. 21(b).

App. 13a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 13 of 41

UNITED STATES V. LOZOYA

13

crime can be determined using witness testimony and some
math. The witnesses, however, gave different estimates of
when the slap occurred. Lozoya’s flight from Minneapolis
to Los Angeles crossed at least eight districts in about threeand-a-half hours. In the span of an hour—the difference
between the estimates of two witnesses—an airplane can
easily fly over multiple states and districts.
A flyover venue rule would unreasonably burden the
victims of in-flight crimes and the interests of justice. Of
particular concern are victims of sexual assault. According
to the FBI, reports of sexual assault on commercial flights
are at an all-time high. 9 Sexual assaults are most common
on long-haul flights when the victim is sleeping and covered
by a blanket or jacket. Sometimes there are no witnesses.
Victims report waking up disoriented and realizing in horror
that they were assaulted by a seatmate. Proving the precise
time of an assault could be impossible, and a flyover venue
rule could mean no prosecution at all.
The venue statute cited by the dissent, 18 U.S.C. § 3238,
is inapplicable here. Section 3238 applies to “offenses
begun or committed upon the high seas, or elsewhere out of
the jurisdiction of any particular State or district,” id., and
we have held that it applies only if “the offense was
committed entirely on the high seas or outside the United
States (unless, of course, the offense was ‘begun’ there).”
United States v. Pace, 314 F.3d 344, 351 (9th Cir. 2002).
Lozoya’s offense was not committed on the high seas, and

9

Sexual Assault Aboard Aircraft, Federal Bureau of Investigation
(Apr. 26, 2018), https://www.fbi.gov/news/stories/raising-awarenessabout-sexual-assault-aboard-aircraft-042618.

App. 14a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 14 of 41

14

UNITED STATES V. LOZOYA

for obvious reasons, we decline to hold that airspace above
the United States is “outside the United States.”
Although the dissent disagrees with Pace’s conclusion
that § 3238 applies to crimes outside the United States, our
interpretation in Pace is consistent with that of our sister
circuits and the legislative history of § 3238. 10 As the
dissent notes, Congress most recently amended § 3238 in
1963, to address (1) crimes committed by more than one
offender, and (2) crimes committed by an offender who
remains abroad. Dissent at 27. The Senate Report
accompanying the 1963 amendments expressly stated that
§ 3238 was intended to cover extraterritorial crimes: “The
purpose of the bill is to (1) permit the indictment and trial of
an offender or joint offenders who commit abroad offenses
against the United States, in the district where any of the
offenders is arrested or first brought; (2) to prevent the
statute of limitations from tolling in cases where an offender
or any of the joint offenders remain beyond the bounds of the
United States by permitting the filing of information or
indictment in the last known residence of any of the

10
See United States v. Miller, 808 F.3d 607 (2d Cir. 2015)
(concluding that “the history and text of § 3238 do make clear, at the
very least, that the statute focuses on offense conduct outside of the
United States,” id. at 619, and “[s]ection 3238 may apply even when
certain offense conduct occurs in the United States, if the criminal acts
are nonetheless ‘essentially foreign,’” id. at 621); United States v.
Holmes, 670 F.3d 586, 594 (4th Cir. 2012) (“We begin, as we must, with
the text of § 3238, which establishes that venue for extraterritorial
offenses ‘shall be in the district in which the offender . . . is arrested or
is first brought.’”); United States v. Layton, 519 F. Supp. 942, 944 (N.D.
Cal. 1981) (“The apparent purpose of [§ 3238], however, is simply to
provide an arbitrary rule of venue for offenses committed outside of the
United States.”).

App. 15a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 15 of 41

UNITED STATES V. LOZOYA

15

offenders.” 11 S. Rep. No. 88-146 (1963), reprinted in 1963
U.S.C.C.A.N. 660, 660 (emphases added).
Moreover, § 3238 by its terms applies to crimes
committed “out of the jurisdiction of any particular State or
district,” but the states routinely assert jurisdiction over
crimes committed in airspace. See, e.g., N.J. Stat. Ann.
§ 6:2-9 (“All crimes, torts, and other wrongs committed by
or against an airman or passenger while in flight over this
state shall be governed by the laws of this state.”); Fla. Stat.
§ 860.13 (criminalizing the “[o]peration of aircraft while
intoxicated or in careless or reckless manner”); Marsh v.
State, 620 P.2d 878, 879 (N.M. 1980) (“Although the
Federal Aviation Act of 1958 was amended to extend federal
criminal laws to certain acts committed on board aircraft,
this legislation was not intended to preclude state
prosecution for the same crimes.” (citation omitted)).
There is no indication that Congress, when it amended
§ 3238 in 1963, believed that airspace above a state is “out
of the jurisdiction” of that state. Indeed, when Congress
amended the Federal Aviation Act in 1961 to federalize
certain in-flight criminal acts, it recognized that crimes
11
The dissent admits that the two amendments exclusively address
extraterritorial crimes, but insists that the new language added in 1963,
irrelevant here, provides the extraterritoriality requirement. Dissent
at 31. This is wrong. For example, one of the two amendments added
the following italicized language: “The trial of all offenses begun or
committed . . . out of the jurisdiction of any particular State or district,
shall be in the district in which the offender, or any one of two or more
joint offenders, is arrested or is first brought[.]” 18 U.S.C. § 3238
(emphasis added). The added language clearly refers to the number of
offenders and not to the extraterritorial location of the crime. Thus, Pace
and our sister circuits correctly interpreted “out of the jurisdiction of any
particular State or district”—the relevant language here—as referring to
places outside of the United States.

App. 16a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 16 of 41

16

UNITED STATES V. LOZOYA

committed in airspace are within the jurisdiction of the
states:
The offenses punishable under this
legislation would not replace any State
jurisdiction but would, where both Federal
and State law provided for punishment for the
same act, be in addition to the State criminal
law.
*

*

*

We wish to emphasize that it is not our
intent to divest the States of any jurisdiction
they now have. This legislation merely seeks
to give the Federal Government concurrent
jurisdiction with the States in certain areas
where it is felt that concurrent jurisdiction
will contribute to the administration of justice
and protect air commerce.
H.R. Rep. 87-958 (1961), reprinted in 1961 U.S.C.C.A.N.
2563, 2564–65. 12 We think it unwise to divest states of their

12

At that time, the Federal Aviation Act included a special venue
provision containing language almost identical to § 3238: “[I]f the
offense is committed out of the jurisdiction of any particular State or
district, the trial shall be in the district where the offender, or any one of
two or more joint offenders, is arrested or is first brought.” 49 U.S.C.
§ 1473(a) (repealed 1994). Legislative history shows that Congress
understood “committed out of the jurisdiction of any particular State or
district” to mean “where . . . offenders commit an offense abroad”—just
as it understood § 3238. H.R. Rep. 87-958 (1961), reprinted in 1961
U.S.C.C.A.N. 2563, 2577. In the context of aviation, “abroad” naturally
refers to foreign airspace and not United States airspace.

App. 17a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 17 of 41

UNITED STATES V. LOZOYA

17

jurisdiction, and dangerous to do so by holding that the
airspace above them is not within the United States.
The dissent insists that its interpretation does not divest
states of their jurisdiction, despite that it requires concluding
that airspace is “out of the jurisdiction of any particular
State” in order for § 3238 to apply. According to the dissent,
such a paradoxical reading is required because the “text and
statutory history of § 3238 show that its scope is coextensive
with the Venue Clause.” Dissent at 29–30. The text is
certainly not coextensive. The text of the Venue Clause is
“not committed within any State,” and the text of § 3238 is
“elsewhere out of the jurisdiction of any particular State or
district”—the key word is “jurisdiction.” The dissent
ignores the statute’s clear text and argues that the word
“jurisdiction” actually means “territory,” relying on a 170year-old Supreme Court decision interpreting a predecessor
statute. Dissent at 26, 29–30. Untethering the word from its
meaning turns the statute upside down, leading to the
dissent’s perplexing conclusion that a state can retain
jurisdiction to prosecute crimes that are committed “out of
the jurisdiction of any particular State.” 13
The dissent contends that legislative history, our
decision in Pace, and our sister circuits’ decisions are all
wrong, unreasoned, or dicta. See Dissent at 29 n.9. In the
dissent’s view, we need not consult any of these sources
13

According to the dissent, § 3238’s “offenses begun or committed
. . . elsewhere out of the jurisdiction of any particular State” has nothing
to do with “whether the State has the authority to prosecute the offense.”
Dissent at 30 (emphasis added). The dissent claims that “the text”
compels this interpretation. Dissent at 30. This interpretation, in turn, is
the basis of the dissent’s equally perplexing argument that we rewrote
the statutory text by reading “jurisdiction” to mean “jurisdiction.”
Dissent at 25.

App. 18a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 18 of 41

18

UNITED STATES V. LOZOYA

because the statutory text clearly supports the dissent’s
interpretation. See Dissent at 25. That is, the dissent
believes that § 3238’s “out of the jurisdiction of any
particular State or district” clearly refers to a place (i) within
the United States (ii) but “not within a state,” (iii) yet also
within the jurisdiction of the states. 14 Dissent at 26
(emphasis added), 29, 30 n.10. We cannot find such a
peculiar place in the statute’s clear text, and we are unaware
of any court that has. 15
We hold that under 18 U.S.C. § 3237(a), venue for inflight federal crimes is proper in the landing district. We
adopt here a venue rule that is tethered to the Constitution,
comports with the decisions of our sister circuits, and is
consistent with common sense and the interests of justice.
CONCLUSION
The Constitution does not limit venue for in-flight
federal crimes to the district sitting directly below a plane at
the moment a crime was committed. Such in-flight crimes
are covered by 18 U.S.C. § 3237(a) and may be prosecuted
in the flight’s landing district. We therefore conclude that

14

The dissent’s interpretation requires concluding that all of these
things are simultaneously true about airspace (and that all contrary legal
authority is wrong). Otherwise, the dissent would have to conclude that
United States airspace is extraterritorial or that states can no longer assert
jurisdiction over airspace.
15

Nor does the government’s petition for rehearing en banc—which
relies exclusively on § 3237(a)—argue for the dissent’s interpretation of
§ 3238.

App. 19a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 19 of 41

UNITED STATES V. LOZOYA

19

venue was proper in the Central District of California and
affirm the district court.
AFFIRMED.

IKUTA, Circuit Judge, with whom COLLINS and LEE,
Circuit Judges, join, dissenting in part and concurring in the
judgment:
This case requires us to determine where a criminal case
must be adjudicated when a discrete federal offense occurs
on an aircraft flying through the airspace above a particular
state. Under 49 U.S.C. § 46506, Congress has made simple
assault a federal crime if the assault occurs “on an aircraft in
the special aircraft jurisdiction of the United States.”
49 U.S.C. § 46506; 18 U.S.C. § 113(a)(5). The majority
holds that venue for this crime is proper in any district the
airplane traveled from, through, or into, meaning that the
trial for an assault on a cross-country flight can be held in
any flyover state. See Maj. at 12 n.8 (acknowledging that
18 U.S.C. § 3237(a) “theoretically allows venue not just in
the landing district, but also the takeoff district as well as the
flyover districts”). Congress did not direct such an absurd
result; rather, under the correct venue statute, the trial for an
assault on a cross-country flight can be held only where the
defendant “is arrested or is first brought,” or where the
defendant resides. 18 U.S.C. § 3238. Therefore, I dissent
from the majority’s reasoning.
I
Article III’s Venue Clause provides that: “[t]he Trial of
all Crimes . . . shall be held in the State where the said
Crimes shall have been committed,” U.S. Const. art. III, § 2,

App. 20a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 20 of 41

20

UNITED STATES V. LOZOYA

cl. 3, and the Sixth Amendment further specifies that crimes
committed within a state must be tried in the “district
wherein the crime shall have been committed, which district
shall have been previously ascertained by law,” U.S. Const.
amend. VI. There is only one exception to this general rule:
when the crimes are “not committed within any State, the
Trial shall be at such Place or Places as the Congress may by
Law have directed.” U.S. Const. art. III, § 2, cl. 3. 1 Monique
Lozoya assaulted a fellow passenger while on an aircraft in
flight, and it is undisputed that Lozoya did not commit this
offense in California. Therefore, the Venue Clause does not
allow Lozoya’s trial to be held in California, unless:
(1) Lozoya’s offense was “not committed within any state,”
and (2) Congress directed that the trial could be held in
California.
II.
To determine whether the exception to the Venue
Clause’s general rule applies, we first ask whether Lozoya’s
offense was “not committed within any State.” For the
reasons explained below, when criminal conduct occurs in
navigable airspace, the crime is “not committed within any
State,” U.S. Const. art. III, § 2, cl. 3, and Congress may

1

The Venue Clause provides, in full:
The Trial of all Crimes, except in Cases of
Impeachment, shall be by Jury; and such Trial shall be
held in the State where the said Crimes shall have been
committed; but when not committed within any State,
the Trial shall be at such Place or Places as the
Congress may by Law have directed.

U.S. Const. art. III, § 2, cl. 3.

App. 21a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 21 of 41

UNITED STATES V. LOZOYA

21

designate the venue for such a crime, Maj. at 8, at least when
the crime has no effect on the ground below. 2
The Venue Clause is ambiguous when applied to an
offense that took place in an airplane flying over the United
States, and some of our usual tools for interpreting legal texts
are not helpful here. We can be confident that, when the
Constitution was adopted in 1789, the public had no view
regarding whether a crime committed at cruising altitude in
navigable airspace was committed within a state under the
Venue Clause. While some contemporaneous sources
indicate that “the jurisdiction of a state is co-extensive with
its territory,” United States v. Bevans, 16 U.S. 336, 386–87
(1818), and therefore a crime committed within the
jurisdiction of a state might be deemed to be committed
within that state’s territory for purposes of the Venue Clause,
these sources do not indicate whether a state’s jurisdiction
extended to offenses occurring exclusively at 30,000 feet.
To be sure, “at common law ownership of the land extended
to the periphery of the universe,” Causby, 328 U.S. at 260,
but this principle must be understood against the backdrop
of the sorts of above-the-ground activities contemplated at

2

For present purposes, we need not resolve the question whether
crimes on airplanes that have an on-the-ground effect within a state’s
territory are committed within the state, such as when a plane is used for
unlawfully spraying agricultural pesticides over land, see Charles F.
Krause, Aviation Tort and Reg. Law § 14:49 (2d ed. 2020), when flyover
activities affect residents, see United States v. Causby, 328 U.S. 256, 258
(1946), or when an offense occurs partly on the ground and partly on an
aircraft, see, e.g., 49 U.S.C. § 46505 (criminalizing carrying concealed
weapons or explosives aboard aircraft, which may also violate state
laws). An offense such as the one at issue here, committed wholly within
a plane flying miles above any state, has no impact on the territory of the
state below, and therefore does not raise this question.

App. 22a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 22 of 41

22

UNITED STATES V. LOZOYA

the time. 3 Given that technology has changed dramatically
since the founding—in addition to aircraft, both satellites
and spaceships now regularly invade the airspace between
the land below and “the periphery of the universe,” id.—this
common law principle is not entitled to much weight in this
context. Indeed, the Supreme Court has indicated that this
common law principle may not be relevant to the modern use
of navigable airspace. See id. at 261.
We are left to rely on what the Framers’ contemporaries
would have understood to be the purpose of the Venue
Clause. See U.S. Term Limits, Inc. v. Thornton, 514 U.S.
779, 806–08 (1995). Historical sources indicate that the
central purpose of the Venue Clause’s requirement that trials
be held in “the state where the said crimes shall have been
committed” was to prevent criminal suspects from being
tried in arbitrary locations, far away from witnesses. See
Joseph Story, Commentaries on the Constitution § 1775
(1833). This was an important issue for the Framers. The
Declaration of Independence had criticized the Crown “[f]or
transporting us beyond Seas to be tried for pretended
offences.” The Declaration of Independence para. 21 (U.S.
1776). In Federalist No. 84, Alexander Hamilton argued that
the Constitution contained “various provisions in favor of
particular privileges and rights,” including the Venue
3

The first human flight occurred on November 21, 1783, in Paris,
France, in a hot air balloon made of paper and silk. History of
Ballooning, National Balloon Museum, https://www.nationalballoonmu
seum.com/about/history-of-ballooning/ (last visited Sept. 23, 2020).
The balloon reached an altitude of 500 feet and traveled 5.5 miles before
landing 25 minutes later. Id. The first manned flight in America
occurred on January 9, 1793. Id. A balloon carrying one man ascended
from a prison yard in Philadelphia, Pennsylvania, reaching an altitude of
5,800 feet. Id. President Washington observed the launch of the balloon,
which later landed in Gloucester County, New Jersey. Id.

App. 23a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 23 of 41

UNITED STATES V. LOZOYA

23

Clause’s general rule that a trial be held in the state where
the crime was committed. The Federalist No. 84 (Alexander
Hamilton). As the Supreme Court subsequently explained,
the Framers drafted the Venue Clause with an awareness “of
the unfairness and hardship to which trial in an environment
alien to the accused exposes him.” United States v. Johnson,
323 U.S. 273, 275 (1944).
Given the inadequacy of our usual interpretive tools, we
should interpret the Venue Clause in a manner consistent
with its evident purpose. A ruling that crimes that are
committed entirely in navigable airspace (and that have no
effect on the ground below) are “not committed within any
State” is consistent with that purpose, because it allows
Congress to identify a reasonable place to hold trials for such
crimes. See Story, Commentaries, § 1775. Otherwise,
prosecutors would be required to establish where a criminal
act occurred in airspace over a state, and defendants would
have to be tried in flyover states. Accordingly, under the
Venue Clause, a crime is “not committed within any State”
when the criminal conduct occurs in navigable airspace. 4

4

The conclusion that a crime is not committed within any state if it
is committed in navigable airspace requires us to overrule United States
v. Barnard, which held that “navigable airspace above [a] district is a
part of the district.” 490 F.2d 907, 911 (9th Cir. 1973). Under federal
law, if a crime is committed in a judicial district, it is also committed in
a state. See 28 U.S.C. §§ 81–131 (defining judicial districts as
comprising all or part of a state, with few exceptions). If the navigable
airspace above a district is part of that district and part of a state, then the
trial of an offense in such airspace must take place within that district
and state. See U.S. Const. art. III, § 2, cl. 3; U.S. Const., amend VI. The
majority attempts to distinguish Barnard on the ground that it “did not
purport to interpret Article III or the Sixth Amendment.” Maj. at 8 n.3.
This is irrelevant, however, because we are bound by the constitutional
significance of Barnard’s ruling whether or not Barnard referenced the

App. 24a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 24 of 41

24

UNITED STATES V. LOZOYA

The majority agrees that in-flight crimes are “not
committed within any State” within the meaning of the
Venue Clause and are not committed within a “district” for
purposes of the Sixth Amendment. According to the
majority, neither the relevant text of either provision nor the
Framers’ understanding of them supports Lozoya’s view that
“a state or district includes the airspace above it for
constitutional venue purposes.” Maj. at 7. The majority thus
concludes that, when crimes are “committed on planes in
flight, the Constitution does not limit venue to the district
directly below the airspace where the crime was committed.”
Id. at 8. Accordingly, the majority explains, “venue ‘shall
be at such Place or Places as the Congress may by Law have
directed.’” Id. (quoting U.S. Const. art. III, § 2, cl. 3).
III
Because Lozoya’s offense was “not committed within
any State,” the trial “shall be at such Place or Places as the
Congress may by law have directed.” U.S. Const. art. III,
§ 2, cl. 3. Congress provided this direction in 18 U.S.C.
§ 3238, 5 which mirrors and implements the exception in the
Venue Clause or Sixth Amendment. If Barnard remains good law, then
we must deem the assault here to have “occurred entirely within the
jurisdiction of a particular district” and a particular state, and Lozoya
must be tried in that district and state. See United States v. Lozoya,
920 F.3d 1231, 1241 (9th Cir. 2019) (emphasis added), reh’g en banc
granted, 944 F.3d 1229 (9th Cir. 2019).
5

As currently drafted, 18 U.S.C. § 3238 provides:
The trial of all offenses begun or committed upon the
high seas, or elsewhere out of the jurisdiction of any
particular State or district, shall be in the district in
which the offender, or any one of two or more joint
offenders, is arrested or is first brought; but if such

App. 25a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 25 of 41

UNITED STATES V. LOZOYA

25

Venue Clause. The majority’s argument to the contrary is
based almost entirely on legislative history, which it uses to
rewrite the text of § 3238. But as explained below, the
language of § 3238 refutes the majority’s claims, and the
majority’s selective quotations from committee reports do
nothing to alter that. See United States v. Mendoza, 244 F.3d
1037, 1042 (9th Cir. 2001) (“If the text of the statute is clear,
this court looks no further in determining the statute’s
meaning.”). Indeed, the text and statutory history of both
§ 3238 and § 3237 strongly confirm that the majority relies
upon the wrong venue provision in upholding the conviction
here.
A
Section 3238 is the direct descendant of the statute
enacted by the First Congress to implement the Venue
Clause. In the Crimes Act of 1790, Congress provided:
[T]he trial of crimes committed on the high
seas, or in any place out of the jurisdiction of
any particular state, shall be in the district
where the offender is apprehended, or into
which he may first be brought.
Ch. 9, § 8, 1 Stat. 112, 114 (1790).
As the Supreme Court explained over a century ago,
Congress enacted this venue provision in the Crimes Act to
offender or offenders are not so arrested or brought
into any district, an indictment or information may be
filed in the district of the last known residence of the
offender or of any one of two or more joint offenders,
or if no such residence is known the indictment or
information may be filed in the District of Columbia.

App. 26a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 26 of 41

26

UNITED STATES V. LOZOYA

implement the Venue Clause’s exception for crimes “not
committed within any State.” United States v. Dawson,
56 U.S. 467, 487–88 (1853). The First Congress used the
phrase “crimes committed . . . in any place out of the
jurisdiction of any particular state” to refer to crimes “not
committed within any State.” Id. at 488. This makes clear
that the “place” referred to in the Crimes Act is a place
outside of any state’s territory, which is where the state
would normally have jurisdiction to adjudicate offenses.
In 1873, Congress passed An Act to
Consolidate the Statutes of the United States,
which moved and renumbered the Crimes
provision and made minor revisions to its
follows:

Revise and
18 Stat. 138,
Act’s venue
language as

The trial of all offenses committed upon the
high seas or elsewhere, out of the jurisdiction
of any particular State or district, shall be in
the district where the offender is found, or
into which he is first brought. 6
Congress revised the phrase “or in any place out of the
jurisdiction of any particular state” to “or elsewhere, out of
the jurisdiction of any particular State or district.” 1 Stat.
112, 114; 18 Stat. 138 (emphasis added). The context makes
clear, however, that the word “elsewhere” continues to refer
to a “place” that is not within a state. See Cook v. United
States, 138 U.S. 157, 181–82 (1891) (continuing to interpret
this provision as directing venue for “offenses not committed
within any state” under the Venue Clause). Congress made
limited stylistic amendments to this provision again in 1911.
6

With the 1873 amendments, Congress renumbered the provision
to Title XIII, Ch. 12, § 730 of the U.S. Code. 18 Stat. 138.

App. 27a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 27 of 41

UNITED STATES V. LOZOYA

27

36 Stat. 1100. In 1948, Congress recodified the provision as
18 U.S.C. § 3238 and amended the statute to apply to
offenses “begun or committed upon the high seas, or
elsewhere out of the jurisdiction of any particular State or
district.” 62 Stat. 826. Again, this language refers to places
that are not within a state.
In 1963, Congress amended § 3238 to clarify where
venue would be proper when an offense involved two or
more joint offenders, or when the offender or offenders were
not arrested or brought into any district. 77 Stat. 48.
Congress retained the prior language of the statute, but added
the following italicized language:
The trial of all offenses begun or committed
upon the high seas, or elsewhere out of the
jurisdiction of any particular State or district,
shall be in the district in which the offender,
or any one of two or more joint offenders, is
arrested or is first brought; but if such
offender or offenders are not so arrested or
brought into any district, an indictment or
information may be filed in the district of the
last known residence of the offender or of any
one of two or more joint offenders, or if no
such residence is known the indictment or
information may be filed in the District of
Columbia.
18 U.S.C. § 3238 (emphasis added). According to a
contemporaneous legislative report, Congress amended the
statute in response to two concerns expressed by the
Attorney General. First, the previous version of § 3238
created a “most awkward situation in certain instances when
two or more joint offenders [were] involved.” H.R. Rep. No.

App. 28a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 28 of 41

28

UNITED STATES V. LOZOYA

86-199, at 2 (1959) (Judiciary Committee Report); see also
S. Rep. No. 88-146 (1963), as reprinted in 1963
U.S.C.C.A.N. 660. For example, if two or more individuals
jointly committed acts of treason abroad and were then
found in different districts within the United States, the
previous version of § 3238 would require them to be tried in
different jurisdictions. H.R. Rep. No. 86-199, at 2. Second,
the prior version of § 3238 lacked language that would allow
the government to indict “an offender who commits an
offense beyond the bounds of the United States and [who]
remains beyond those bounds.” 7 Id. The amendment to
§ 3238 addressed both concerns. Id. at 1. 8 While the 1963
amendment gave the government more flexibility to try
cases involving defendants who committed offenses against
7

When defendants committed crimes against the United States
abroad, the statute of limitations for commencing criminal prosecution
against such defendants continued running while they remained living
abroad. See H.R. Rep. No. 86-199, at 3; see also Donnell v. United
States, 229 F.2d 560, 565 (5th Cir. 1956). The Attorney General wanted
the authority to indict such defendants in the United States in order to
toll the statute of limitations.
8
According to the House Judiciary Committee Report, the purpose
of this amendment to § 3238 was to:

(1) permit the indictment and trial of an offender or
joint offenders who commit abroad offenses against
the United States, in the district where any of the
offenders is arrested or first brought; (2) to prevent the
statute of limitations from tolling in cases where an
offender or any of the joint offenders remain beyond
the bounds of the United States by permitting the filing
of information or indictment in the last known
residence of any of the offenders.
H.R. Rep. No. 86-199, at 1; see also S. Rep. No. 88-146, at 1, 1963
U.S.C.C.A.N. at 660.

App. 29a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 29 of 41

UNITED STATES V. LOZOYA

29

the United States abroad, it did not change the original text
of § 3238, which continued to apply to offenses committed
“elsewhere out of the jurisdiction of any particular State,”
just as it had since the Crimes Act.
Given the text and history of § 3238, the majority’s claim
that § 3238 applies only to offenses “committed entirely on
the high seas or outside the United States” lacks merit. Maj.
at 13 (quoting United States v. Pace, 314 F.3d 344, 351 (9th
Cir. 2002)). The majority’s interpretation has no support in
the text of § 3238. Although Congress could have limited
§ 3238 to offenses committed “outside the United States,” it
instead chose to reference offenses “committed upon the
high seas, or elsewhere out of the jurisdiction of any
particular State or district.” 18 U.S.C. § 3238 (emphasis
added). 9 The majority is likewise mistaken in claiming that
the reference in § 3238 to offenses that are committed
“elsewhere out of the jurisdiction of any particular State”
applies only to offenses that a state lacks the authority to
prosecute. Maj. at 17. The text and statutory history of
§ 3238 show that its scope is coextensive with the Venue

9
The majority’s reliance on dicta in nonbinding cases provides no
support for concluding otherwise. The unreasoned statement in Pace
that “§ 3238 does not apply unless the offense was committed entirely
on the high seas or outside the United States (unless, of course, the
offense was ‘begun’ there)” is mere dicta given that the offense in Pace
was “partially ‘committed’ in the District of Ohio.” 314 F.3d at 351.
The two other cases cited by the majority are likewise unreasoned and
unpersuasive. See United States v. Miller, 808 F.3d 607, 621 (2d Cir.
2015) (stating, without support, that § 3238 “focuses on offense conduct
outside of the United States” (emphasis added)); United States v. Layton,
519 F. Supp. 942, 943–44 (N.D. Cal. 1981) (stating without support or
reasoning that “[t]he apparent purpose of [§ 3238], however, is simply
to provide an arbitrary rule of venue for offenses committed outside of
the United States” (emphasis added)).

App. 30a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 30 of 41

30

UNITED STATES V. LOZOYA

Clause exception, and applies to crimes committed outside
the territory of a state.
The majority contends that this construction of § 3238 is
wrong. According to the majority, if § 3238 applies to inflight offenses, then such offenses would be deemed to have
been committed “elsewhere out of the jurisdiction of any
particular State,” and that interpretation would divest states
of their prosecutorial jurisdiction over in-flight crimes. Maj.
at 15–16. The text of the statute refutes the majority’s
reading. By using the word “elsewhere,” § 3238 focuses on
whether the place where the offense was committed is “out
of the jurisdiction of any particular State” and not (as the
majority would have it) on whether the State has the
authority to prosecute the offense. This means there is no
daylight between § 3238 and the Venue Clause because both
focus on whether the place in which the offense occurred is
within a state. And because the majority agrees that the
airspace at issue here is not a place within any State for
purposes of the Venue Clause, see supra at Part II, it follows
that the airspace is also not a place within the jurisdiction of
any State for purposes of § 3238. Thus, nothing about
§ 3238 could be said to “divest states of their jurisdiction.”
Maj. at 16–17. The question whether a state can prosecute a
crime committed outside a state’s territory in navigable
airspace is exactly the same under § 3237(a) or § 3238. 10

10

The majority merely assumes that a state has jurisdiction to
prosecute crimes committed at cruising altitude in navigable airspace,
and supports its assumption only with the legislative history of the 1961
amendments to the Federal Aviation Act. Maj. at 15–16 & n.12. The
views of legislators regarding a state’s jurisdiction provide no guidance
for our analysis of such a legal question, and of course the legislative
history of a “completely separate statute[] passed well after” the statute

App. 31a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 31 of 41

UNITED STATES V. LOZOYA

31

Nor does legislative history support the majority’s
interpretation. The majority relies on legislative history
explaining the 1963 amendment to § 3238, Maj. at 14–17,
which added language covering offenders committing
criminal acts abroad. This amendment did not affect the
language in § 3238 relevant here, which directs that offenses
committed “elsewhere out of the jurisdiction of any
particular State or district” must be tried in the district in
which the offender is arrested or first brought. Therefore,
the 1963 legislative history sheds no light on whether the
relevant language in § 3238 is limited to offenses committed
abroad.
In short, § 3238 implements the Venue Clause: it
provides where a crime shall be tried if it is “not committed
within any State.” Because an assault in navigable airspace
is “not committed within any State,” the trial must be held
where § 3238 directs, namely, “in the district” where the
offender is “arrested or . . . first brought,” or if there is no
such district, in the district where the offender resides.
18 U.S.C. § 3238. This is consistent with the purposes
behind the Venue Clause because the trial of an offender
who committed an assault on an airplane will generally be
held where the offender is arrested, typically in the district
where the plane lands. 11 Such a venue is not arbitrary,
because the defendant, the witnesses, and the victims are
more likely to be found in that district than any other.

being construed, has little persuasive power even to those who rely on
legislative history. Doe v. Chao, 540 U.S. 614, 626 (2004).
11

This is consistent with the “near-universal practice of landing
district prosecution.” Maj. at 11.

App. 32a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 32 of 41

32

UNITED STATES V. LOZOYA

Because Lozoya committed an assault in navigable
airspace, § 3238 applies, and she is subject to trial in the
Central District of California. 12
B
To recap, the majority agrees that a crime committed on
a plane in flight is “not committed within any State” for
purposes of the Venue Clause. Maj. at 8. And as the Venue
Clause’s exception provides, if a crime is not committed
within a state, it may be tried wherever Congress directs. 13
But instead of relying on § 3238, which expressly directs
where an offense committed outside of a state must be tried,
the majority relies on the second sentence in § 3237(a),
which addresses a different issue: ensuring that continuing
offenses can be tried “in any district from, through, or into
which . . . commerce . . . moves.” 14
12
The record indicates that Lozoya’s residence was in Riverside,
California. Therefore, even if Lozoya was not arrested when she was
summoned to appear before the magistrate judge, venue was proper in
the district of her last known residence, the Central District of California.
See 18 U.S.C. § 3238.
13

For instance, the majority points to 48 U.S.C. § 644a, which
provides that all offenses committed on certain Pacific islands “shall be
deemed to have been consummated or committed on the high seas on
board a merchant vessel or other vessel belonging to the United States.”
Maj. at 11 n.6. Because these islands are not “within any State,”
Congress may direct where crimes on such islands may be tried.
14

18 U.S.C. § 3237(a) provides, in full:
Except as otherwise expressly provided by enactment
of Congress, any offense against the United States
begun in one district and completed in another, or
committed in more than one district, may be inquired

App. 33a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 33 of 41

UNITED STATES V. LOZOYA

33

The text and statutory history make clear that § 3237(a)
does not implement the Venue Clause, but rather provides
for the trial of offenses committed in more than one state or
district. The second sentence in § 3237(a) was enacted in
response to the Supreme Court’s decision in United States v.
Johnson, 323 U.S. at 273–74. 15 Johnson construed a
criminal statute making it unlawful to “use the mails or any
instrumentality of interstate commerce” to send or receive
certain dentures across state lines. 323 U.S. at 273–74.
Given a defendant’s constitutional right to be tried in the
state and district where the crime was committed, U.S.
Const. art. III, § 2, cl. 3; U.S. Const. amend. VI, the Supreme
Court construed the denture statute narrowly as permitting
trial only in the state and district where the sender put the
dentures in the mail or into which the importer brought the
of and prosecuted in any district in which such offense
was begun, continued, or completed.
Any offense involving the use of the mails,
transportation in interstate or foreign commerce, or the
importation of an object or person into the United
States is a continuing offense and, except as otherwise
expressly provided by enactment of Congress, may be
inquired of and prosecuted in any district from,
through, or into which such commerce, mail matter, or
imported object or person moves.
15

Prior to Johnson, the statute which is now § 3237(a) read:
When any offense against the United States is begun
in one judicial district and completed in another, it
shall be deemed to have been committed in either, and
may be dealt with, inquired of, tried, determined, and
punished in either district, in the same manner as if it
had been actually and wholly committed therein.

36 Stat. 1100 (1911).

App. 34a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 34 of 41

34

UNITED STATES V. LOZOYA

dentures. Id. at 277–78. The Court indicated, however, that
it would have reached a different result had Congress used
“the doctrine of a continuing offense” and expressly
provided that the crime extended over the whole area
through which the dentures were transported. Id. at 275.
Congress could, if it chose, enact “specific venue provisions
giving jurisdiction to prosecute in any criminal court of the
United States through which a process of wrongdoing
moves.” Id. at 276.
Rather than add a specific venue provision to the denture
statute itself, as Johnson had suggested, Congress responded
to Johnson by adding the second sentence of what is now
§ 3237(a), which expressly referred to a “continuing
offense” and provided that such a continuing offense in the
use of the mails or interstate commerce could be prosecuted
“in any district from, through, or into which such commerce
or mail matter moves.” This amendment to § 3237(a) thus
directly implemented Johnson’s guidance that Congress
could use “the doctrine of a continuing offense” in order to
“provide that the locality of a crime shall extend over the
whole area through which force propelled by an offender
operates,” and therefore “an illegal use of the mails or of
other instruments of commerce may subject the user to
prosecution in the district where he sent the goods, or in the
district of their arrival, or in any intervening district.” Id.
at 275.
The second paragraph of § 3237(a) is not surplusage, as
the majority wrongly suggests. See Maj. at 10–11. Rather,
the second paragraph defines a particular category of
offenses that constitute continuing offenses and thereby fall
within the more generally framed rule set forth in the first
paragraph. Given the overlap between these two paragraphs,
and the fact that the first paragraph of § 3237(a) standing

App. 35a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 35 of 41

UNITED STATES V. LOZOYA

35

alone was insufficient to forestall the outcome in Johnson,
the majority’s suggestion that the two paragraphs must be
read as applying to two different categories of offenses is
clearly wrong. Id. It is not uncommon to have a situation
“in which a general authorization and a more limited,
specific authorization exist side-by-side.” RadLAX Gateway
Hotel, LLC v. Amalgamated Bank, 566 U.S. 639, 645 (2012).
In that situation, there is no violation of the canon against
superfluity, because the canon that “the specific governs the
general” governs the analysis. Id. (citation omitted). Rather
than being superfluous, the specific authorization (rather
than the more general one) controls in the cases where it
applies. Id. Further, the majority’s notion that, in order to
avoid surplusage, the second paragraph of § 3237(a) must be
read in a way that raises grave constitutional concerns
ignores the equally, if not more important, constitutionalavoidance canon. See infra at Part III.B. Even if there were
redundancy in the proper reading of § 3237(a) set forth
above, that reading is natural and preferable compared to the
majority’s oxymoronic and constitutionally problematic
notion of a non-continuing continuing offense.
The doctrine of “continuing offenses” discussed in
Johnson is not related to the Venue Clause’s exception for
offenses “not committed within any State,” which is
addressed in § 3238. Rather, the doctrine is a specific
application of the constitutional requirements that crimes be
tried in the state and district where they were committed. As
interpreted by the Supreme Court, a “continuing offense” is
an offense that “consists of distinct parts” that occur in
“different localities,” and “the whole may be tried where any
part can be proved to have been done.” United States v.
Rodriguez-Moreno, 526 U.S. 275, 281 (1999) (quoting
United States v. Lombardo, 241 U.S. 73, 77 (1916)). In other
words, a “continuing offense” is one which was committed

App. 36a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 36 of 41

36

UNITED STATES V. LOZOYA

in more than one state, and so can be tried in more than one
state. For instance, crimes that persist during the course of
transportation between states, such as interstate drug
smuggling or kidnaping, are continuing offenses, which can
be tried wherever the transportation occurred.
See
Rodriguez-Moreno, 526 U.S. at 279–81 (holding that
kidnaping is a continuing offense because the “conduct
constituting the offense” continues throughout the journey
and “does not end until the victim is free”).
Congress cannot avoid the strictures of the Sixth
Amendment and Venue Clause merely by labeling a pointin-time offense as a “continuing offense.” “Crimes
consisting of a single noncontinuing act are ‘committed’ in
the district where the act is performed.” Pace, 314 F.3d
at 350 (quoting United States v. Corona, 34 F.3d 876, 879
(9th Cir. 1994)). Any Congressional enactment that
purported to allow the trial of such a point-in-time offense
outside the state and district where it occurred, whether or
not the offense was labeled “continuing,” would be
constitutionally impermissible.
Therefore, the term
“continuing offense” in § 3237(a) must be interpreted as
referring to the sort of crime that “extend over the whole area
through which force propelled by an offender operates,”
Johnson, 323 U.S. at 275, where the “process of
wrongdoing” is “a continuing phenomenon,” id. at 276–77.
Contrary to the Supreme Court’s definition of the
continuing offense doctrine, the majority has interpreted the
phrase “continuing offense” in § 3237 to include any offense
(including point-in-time offenses) involving transportation
in interstate or foreign commerce. See Maj. at 10 (rejecting
the argument that the “definition that Congress adopted”
requires that the offense be continuing or persisting in any
way). Therefore, under the majority’s interpretation, any

App. 37a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 37 of 41

UNITED STATES V. LOZOYA

37

offense (including a discrete slap) that “take[s] place on a
form of interstate transportation” meets the criteria in the
second sentence of § 3237(a): it is a continuing offense
“involving” transportation in interstate commerce under
§ 3237(a), at least when the offense is one “whose very
definition requires interstate transportation.” Maj. at 10.
Indeed, the majority acknowledges that no part of the offense
at issue here occurred in the Central District of California.
Maj. at 6 n.1 (“It is undisputed that the assault happened
before the plane entered airspace above the Central District
. . . .”).
The majority’s interpretation is wrong on its face and
raises potential constitutional problems. By its terms,
§ 3237(a) is not limited to offenses that fall within the Venue
Clause’s exception for crimes not committed within any
state. As a result, as interpreted by the majority, § 3237 will
apply in a range of circumstances that raise significant
constitutional concerns. A simple hypothetical shows why.
Consider a rogue baggage handler standing on the tarmac at
Los Angeles International Airport. As an airplane takes
flight on its way to New York’s John F. Kennedy
International Airport, the baggage handler aims the beam of
a laser pointer at the aircraft in violation of 18 U.S.C.
§ 39A(a), which punishes “[w]hoever knowingly aims the
beam of a laser pointer at an aircraft in the special aircraft
jurisdiction of the United States.” Under the Venue Clause,
the baggage handler’s offense was committed in California,
and because the Venue Clause’s exception for offenses “not
committed within any state” is inapplicable, it must be tried
in California. And Congress cannot circumvent the Venue
Clause by relabeling the baggage handler’s noncontinuing
action as a “continuing offense.” See Rodriguez-Moreno,
526 U.S. at 279; United States v. Cabrales, 524 U.S. 1, 6–7
(1998). Indeed, the majority agrees that the Constitution

App. 38a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 38 of 41

38

UNITED STATES V. LOZOYA

requires this hypothetical offense to be tried in California.
Maj. at 8 n.4.
But under the majority’s interpretation, § 3237(a)
applies to the baggage handler’s crime. Like the slap in this
case, the baggage handler’s laser pointing “‘involved’
transportation in interstate commerce under [the majority’s]
reading of the word ‘involve.’” See Maj. at 10. Accordingly,
it is a “continuing offense,” per the majority’s interpretation
of § 3237(a). And, likewise, § 39A(a)’s “very definition
requires interstate transportation.” Maj. at 10. Therefore,
under the majority’s reading of § 3237(a), the baggage
handler has committed a “continuing offense,” and he may
be tried in any district “from, through, or into which such
commerce . . . moves.” 18 U.S.C. § 3237(a). This includes
(depending upon the airplane’s exact route) the District of
New Mexico, the District of Kansas, the Central District of
Illinois, and the Eastern District of New York. The majority
agrees that such a result is inconsistent with the Venue
Clause because “[t]he provision for offenses ‘not committed
within any state’ is inapplicable,” but does not reconcile this
conclusion with its interpretation of § 3237(a). Maj. at 8
n.4. 16
Because many discrete offenses “relate to or affect”
interstate transportation, the majority’s mistaken
interpretation of § 3237(a) has a widespread effect. Maj.
at 10. Even if the majority interprets § 3237(a) as applying
only to statutory offenses that reference interstate
16
The majority says it is “puzzled” by this hypothetical, because it
is clear that the Venue Clause requires the baggage handler to be tried in
California. Maj. at 8 n.4. Given that § 3237(a), as interpreted by the
majority, applies to the baggage handler’s offense, this amounts to an
implicit acknowledgment that under the majority’s reading, § 3237(a)
would be unconstitutional in many applications.

App. 39a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 39 of 41

UNITED STATES V. LOZOYA

39

transportation or an instrumentality of interstate
transportation, Maj. at 10, Congress has created numerous
point-in-time offenses that include such a reference, see,
e.g., 18 U.S.C. § 1992 (criminalizing various discrete acts
against and/or involving railroad equipment and mass
transportation systems); 18 U.S.C. § 33(a) (criminalizing
destruction of motor vehicles or motor vehicle facilities
“used, operated, or employed in interstate or foreign
commerce”). Although these offenses would generally be
committed within a particular state, under the majority’s
interpretation of § 3237(a), defendants may be tried
wherever the relevant instrumentality of commerce has
moved.
But more important, if § 3237(a) governs crimes that
“relate to or affect” transportation in interstate commerce,
Maj. at 10, and is not limited to offenses that are
“continuing” because the “process of wrongdoing”
continues during interstate transportation, Johnson, 323 U.S.
at 276, then the language of the statute provides no basis to
limit § 3237(a) to offenses “whose very definition requires
interstate transportation.” See Maj. 10. And absent such a
limiting principle, “any offense involves transportation in
interstate commerce so long as the interstate transportation
is among the circumstances related to the commission of the
offense.” United States v. Morgan, 393 F.3d 192, 200 (D.C.
Cir. 2004); see also United States v. Cope, 676 F.3d 1219,
1225 (10th Cir. 2012) (“[T]he government need only show
that the crime took place on a form of transportation in
interstate commerce.” (quoting United States v. Breitweiser,
357 F.3d 1249, 1253 (11th Cir. 2004))). Given that it is “rare
that a crime does not involve circumstances in which a
person or instrumentality related to the crime has not passed
through interstate commerce,” Morgan, 393 F.3d at 200, the

App. 40a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 40 of 41

40

UNITED STATES V. LOZOYA

majority’s reading of § 3237(a) will swallow the Venue
Clause.
Even when an offense is not committed within any state,
like Lozoya’s offense in navigable airspace, the majority
acknowledges that its interpretation of § 3237(a) leads to
absurd results that are inconsistent with the purposes of the
Venue Clause. See Maj. at 12 n.8 (“We acknowledge that
§ 3237(a) theoretically allows venue not just in the landing
district, but also the takeoff district as well as the flyover
districts.”).
Under the majority’s interpretation, for
example, Lozoya could be tried in any district over which
the airplane flew while traveling from Minneapolis to Los
Angeles. She could have faced trial in a state where she, her
accuser, and witnesses never set foot. We should not lightly
assume that Congress enacted a venue rule so contrary to the
Framers’ intent.
Johnson, 323 U.S. at 276; Story,
Commentaries, § 1775.
In short, the majority’s reading of § 3237(a) as providing
the venue for point-in-time offenses that could occur in a
single state is not plausible. It conflicts with the most natural
reading of § 3237(a), which is that it provides the venue for
a trial of “continuing offenses,” meaning offenses that
occurred in multiple states. When “choosing between
competing plausible interpretations of a statutory text,” we
must employ the “reasonable presumption that Congress did
not intend the alternative which raises serious constitutional
doubts.” Clark v. Martinez, 543 U.S. 371, 381 (2005).
Interpreting § 3237(a) in a strained manner that renders it
unconstitutional in many instances and contrary to the Venue
Clause’s purposes in others violates this principle. Nor can
we overlook these constitutional problems simply because
applying § 3237(a) in the case before us does not violate the
Venue Clause. The Supreme Court forbids us from

App. 41a

Case: 17-50336, 12/03/2020, ID: 11913387, DktEntry: 60-1, Page 41 of 41

UNITED STATES V. LOZOYA

41

interpreting a statute one way in this case and another way
when the constitutional problems we have invited show up
at our doorstep. Doing so “would render every statute a
chameleon, its meaning subject to change depending on the
presence or absence of constitutional concerns in each
individual case.” Id. at 382.
IV
It is a mystery why the majority relies on a venue statute
that obviously does not apply to discrete criminal offenses in
navigable airspace, instead of a statute that has provided
venue for offenses “not committed within any State” since
the beginning of our nation. Section 3238’s text and history
indicate that it governs those offenses, and applying § 3238
is more consistent with Article III’s purposes than applying
§ 3237(a).
Because the majority’s interpretation of
§ 3237(a) creates serious constitutional problems that could
easily be avoided, we should adopt the construction “more
consonant with the considerations of historic experience and
policy which underlie those safeguards in the Constitution
regarding the trial of crimes.” Johnson, 323 U.S. at 276.
Therefore, I dissent.

App. 42a

Appendix B

App. 43a

Case: 17-50336, 12/20/2019, ID: 11540962, DktEntry: 46, Page 1 of 1

FILED

FOR PUBLICATION
UNITED STATES COURT OF APPEALS

DEC 20 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MONIQUE A. LOZOYA,

No.

U.S. COURT OF APPEALS

17-50336

D.C. No. 2:16-cr-00598-AB-1
Central District of California,
Los Angeles
ORDER

Defendant-Appellant.
THOMAS, Chief Judge:
Upon the vote of a majority of nonrecused active judges, it is ordered that
this case be reheard en banc pursuant to Federal Rule of Appellate Procedure 35(a)
and Circuit Rule 35-3. The three-judge panel disposition in this case shall not be
cited as precedent by or to any court of the Ninth Circuit.
Judge Hunsaker did not participate in the deliberations or vote in this case.

App. 44a

Appendix C

App. 45a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 1 of 30

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No. 17-50336

v.

D.C. No.
2:16-cr-00598-AB-1

MONIQUE A. LOZOYA,
Defendant-Appellant.

OPINION

Appeal from the United States District Court
for the Central District of California
André Birotte Jr., District Judge, Presiding
Argued and Submitted March 7, 2019
Pasadena, California
Filed April 11, 2019
Before: MILAN D. SMITH, JR. and JOHN B. OWENS,
Circuit Judges, and BENJAMIN H. SETTLE, *
District Judge.
Opinion by Judge Milan D. Smith, Jr.;
Partial Concurrence and Partial Dissent by Judge Owens

*

The Honorable Benjamin H. Settle, United States District Judge
for the Western District of Washington, sitting by designation.

App. 46a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 2 of 30

2

UNITED STATES V. LOZOYA
SUMMARY **

Criminal Law
The panel reversed for improper venue a conviction for
assaulting a fellow passenger on a commercial flight from
Minneapolis to Los Angeles, and remanded.
The panel found it unnecessary to determine whether the
government’s prolonged prosecution of the defendant
constituted a violation of the Speedy Trial Act. The panel
explained that because the district court did not abuse its
discretion when determining that a dismissal pursuant to the
Speedy Trial Act would have been without prejudice, any
erroneous application of the Speedy Trial Act would not
have changed the outcome, as the government would have
been left free to file the superseding information on which
the defendant was eventually convicted.
Because venue was proper on the face of the superseding
information, the panel held that the defendant was permitted
to move for acquittal on venue grounds following the
government’s case-in-chief, and did not waive the issue.
The panel held that venue was not proper in the Central
District of California in this case in which there is no doubt
that the assault occurred before the flight entered the Central
District’s airspace. The panel held that the first paragraph of
18 U.S.C. § 3237(a), which concerns continuing offenses
that occur in multiple districts, does not confer venue. The
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 47a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 3 of 30

UNITED STATES V. LOZOYA

3

panel held that the second paragraph of § 3237(a), which
pertains to offenses involving transportation in interstate
commerce or foreign commerce, does not confer venue. The
panel held that because the assault occurred entirely within
the jurisdiction of a particular district, 18 U.S.C. § 3238—
which pertains to offenses begun or committed on the high
seas, or elsewhere out of the jurisdiction of any particular
state or district—does not confer venue.
The panel directed the district court, on remand, to
dismiss the charge without prejudice, unless the defendant
consents to transfer the case to the proper district. The panel
held that the proper venue for an assault on a commercial
aircraft is the district in whose airspace the alleged offense
occurred. The panel wrote that it seems wholly reasonable,
using testimony and flight data, for the government to
determine where exactly the assault occurred by the
preponderance of the evidence necessary to establish venue.
Concurring in part and dissenting in part, Judge Owens
wrote that while he agrees with much of the majority
opinion, he disagrees with its ultimate holding on venue,
which creates a circuit split and makes prosecuting crimes
on aircraft (including cases far more serious than this one)
extremely difficult. Judge Owens wrote that he agrees with
the Tenth and Eleventh Circuits that the “transportation in
interstate . . . commerce” language in § 3237(a) covers the
conduct in this case.

App. 48a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 4 of 30

4

UNITED STATES V. LOZOYA
COUNSEL

James H. Locklin (argued), Deputy Federal Public Defender;
Hilary Potashner, Federal Public Defender; Office of the
Federal Public Defender, Los Angeles, California; for
Defendant-Appellant.
Karen E. Escalante (argued), Assistant United States
Attorney; Lawrence S. Middleton, Chief, Criminal Division;
Nicola T. Hanna, United States Attorney; United States
Attorney’s Office, Los Angeles, California; for PlaintiffAppellee.

OPINION
M. SMITH, Circuit Judge:
Defendant-Appellant Monique A. Lozoya was convicted
of assaulting a fellow passenger on a commercial flight from
Minneapolis to Los Angeles. Following several months of
pretrial activity, the government filed a superseding
information charging Lozoya with simple assault, a Class B
misdemeanor. At a bench trial, the magistrate judge
rendered a guilty verdict, and the district court subsequently
affirmed the conviction. We hold that venue was not proper
in the Central District of California, and therefore reverse
Lozoya’s conviction.
FACTUAL AND PROCEDURAL BACKGROUND
I. Factual Background
On the evening of July 19, 2015, Lozoya and her
boyfriend, Joshua Moffie, flew on Delta Airlines Flight 2321
from Minneapolis to Los Angeles. Lozoya sat in the middle

App. 49a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 5 of 30

UNITED STATES V. LOZOYA

5

seat of the second-to-last row on the aircraft’s starboard side;
Moffie occupied the aisle seat to her left, while another
passenger, Charles Goocher, sat in the window seat to her
right. Oded Wolff, traveling with his wife Merav and their
family, sat immediately behind Lozoya in the middle seat of
the last row, with Merav in the window seat to his right.
As Flight 2321 soared above the Great Plains, Lozoya
wanted to sleep. However, her attempts at slumber were
foiled because the passenger behind her—Wolff—
repeatedly jostled her seat. This purported annoyance was
verified by Goocher, who recalled that “the people that were
behind us were causing commotion behind—behind our
chairs, wrestling around with their stuff . . . . hitting the
chairs, the tray up and down, up and down, up and down.”
Wolff denied causing a commotion; instead, he claims that,
after tapping the TV screen on the back of Lozoya’s seat in
a vain attempt to turn it off, he and Merav went to sleep.
The incident that led to this appeal occurred later in the
flight, when Wolff and his wife left their seats to use the
lavatory. While the pair was away, Lozoya told Moffie
about the jostling. Although Moffie offered to say
something, Lozoya opted instead to speak to Wolff herself
when he returned to his seat. Lozoya claimed that when
Wolff returned, while she was still seated, she turned to her
left to address the standing Wolff and politely asked him to
stop hitting her seat, to which Wolff abrasively shouted
“What?” and “quickly” moved his hand to within a half-inch
of her face. Lozoya testified, “I got really scared and
nervous, and I didn’t know what was going on, and it felt
like he was about to hit me,” and so “without even thinking
. . . pushed him away” with an open palm, which made
contact with Wolff’s face. Wolff and Merav, by contrast,
testified that Wolff’s hands were resting on the seats behind

App. 50a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 6 of 30

6

UNITED STATES V. LOZOYA

and in front of him, and that Lozoya yelled at him to stop
tapping his TV screen and then hit him with the back of her
hand, causing his nose to bleed.
As the various parties responded in shock to the incident,
flight attendant Divone Morris approached them to calm the
situation, and lead flight attendant Terry Sullivan began to
investigate. Sullivan spoke with Lozoya and Wolff, and
asked the latter if he preferred to file charges or would
instead accept an apology from Lozoya. Wolff agreed to
meet with Lozoya at the airport after the flight, and indicated
that he would listen to her explanation before deciding
whether to accept an apology. However, after discussing the
issue with Moffie, Lozoya decided against meeting with
Wolff, and left the airport without apologizing.
II. Procedural Background
A. Pretrial
In August 2015, about three weeks after the incident on
Flight 2321, FBI special agent Meredith Burke, who had
investigated the assault and interviewed the participants,
issued Lozoya a violation notice charging her with assault
pursuant to 18 U.S.C. § 113(a)(4). Because the maximum
custodial status of this offense is one year, it is classified as
a Class A misdemeanor. 18 U.S.C. § 3559(a)(6). Burke also
prepared a fourteen-page statement of probable cause
detailing her investigation. She dated the statement August
7, 2015.
On September 16, 2015, Lozoya was arraigned before a
magistrate judge. Although the judge granted Lozoya’s
request for counsel, he also required a monthly contribution
of $200 towards attorneys’ fees. Lozoya pleaded not guilty,
and the magistrate judge set a trial date of February 4, 2016.

App. 51a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 7 of 30

UNITED STATES V. LOZOYA

7

The judge warned Lozoya, “[I]f you fail to appear on the date
of your trial, that will result in the issuance of an arrest
warrant,” but set no bond.
On January 14, 2016, approximately four months after
the arraignment, Lozoya moved to dismiss the case. She
argued that the government failed to comply with the Federal
Rules of Criminal Procedure, which require that “[t]he trial
of a misdemeanor [] proceed on an indictment, information,
or complaint,” Fed. R. Crim. P. 58(b)(1), and that under the
Speedy Trial Act (the Act), the government should have filed
an indictment or information within thirty days of her
arraignment. The government opposed the motion, arguing
that the Act had not been triggered because “the issuance of
a violation notice does not trigger the Speedy Trial Act.” It
also claimed that the procedure it employed in Lozoya’s case
was consistent with standard practices, which Lozoya
countered was incompatible with both the Act and the
Central District of California’s internal guidelines.
On February 1, 2016, before the magistrate judge heard
Lozoya’s motion to dismiss, the government filed an
information charging her with the Class A misdemeanor.
Three days later—the date set for trial—the magistrate
judge first addressed Lozoya’s pending motion. The judge
denied the motion, determining that, under United States v.
Boyd, 214 F.3d 1052 (9th Cir. 2000), the issuance of a notice
violation
did not constitute a complaint and did not
start the running of the 30-day clock. . . . The
fact that there was arguably an arrest as that
term is used under the Speedy Trial Act Plan
here in the Central District does not meet the
requirement for a complaint, which is a

App. 52a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 8 of 30

8

UNITED STATES V. LOZOYA
separate requirement from the issue of an
arrest.

Even if there had been a violation of the Act, the judge
continued, he would not have dismissed the case with
prejudice. Because the government had filed the subsequent
information, the judge granted its motion to dismiss the
violation notice without prejudice.
Lozoya was arraigned on the Class A misdemeanor
information on February 9, 2016, at which time she pleaded
not guilty. 1
Subsequently, Lozoya filed two additional motions to
dismiss the information with prejudice, again arguing that
the Act had been violated. At a February 29, 2016 hearing
on the motions, the government offered to “file a
superseding information and make it a Class B”
misdemeanor, which would “eliminate all the Speedy Trial
Act problems.” The magistrate judge then indicated that she
would reject Lozoya’s request to dismiss the case with
prejudice, noting that “consideration of the seriousness of
the offense, the facts and circumstances of this case, and the
impact of the reprosecution, particularly in light of the fact
that it’s now going to be a Class B misdemeanor, does not
warrant a dismissal with prejudice.” The judge ultimately
decided to defer ruling on the issue until after the
government responded to Lozoya’s third motion to dismiss
and filed a new information.

1

Although Magistrate Judge Alexander F. MacKinnon presided
over the first hearing, Magistrate Judge Alka Sagar presided over the
second arraignment and subsequent proceedings.

App. 53a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 9 of 30

UNITED STATES V. LOZOYA

9

Soon thereafter, the government filed the superseding
information charging Lozoya with simple assault in
violation of 18 U.S.C. § 113(a)(5), a Class B misdemeanor.
The magistrate judge then denied Lozoya’s outstanding
motions to dismiss, and arraigned Lozoya on the superseding
information on April 5, 2016.
B. Trial
At the bench trial, the government called Wolff and
Merav, as well as Sullivan (the lead flight attendant) and
Burke (the FBI special agent who investigated the incident).
After the government rested, Lozoya moved for acquittal
pursuant to Federal Rule of Criminal Procedure 29, arguing
that venue in the Central District of California was improper.
The magistrate judge denied the motion, stating that “[a]ny
offense that involves transportation in interstate or foreign
commerce is a continuing offense and may be prosecuted in
any district from, through or into which such commerce
moves,” and concluding that “to establish venue, the
government only needs to prove that the crime took place on
a form of transportation in interstate commerce.” As part of
her defense, Lozoya called Morris (another flight attendant),
Goocher (the passenger who sat next to Lozoya on the
flight), and Moffie (her boyfriend), and testified on her own
behalf.
Before pronouncing judgment, the magistrate judge
acknowledged that “[t]his is really an unfortunate situation
borne out of a misunderstanding in a situation that I think
almost anybody that flies commercially can relate to.”
Nevertheless, she concluded that “in this case there was
sufficient evidence to establish that the defendant struck the
victim on his face, and . . . striking the victim would be
sufficient to meet the standard for simple assault.”

App. 54a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 10 of 30

10

UNITED STATES V. LOZOYA
She also found that
defendant’s testimony and her statements to
the special agent and to the flight attendants
contained inconsistencies regarding her
perceived threat from the victim, and also the
Court found that the testimony of the
defendant’s witnesses were themselves
inconsistent and failed to establish beyond a
reasonable doubt that the defendant was in a
position where she felt threatened.

Thus, the magistrate judge concluded that, as to the issue of
self-defense, “based on the testimony presented [] the
defendant used more force than what was reasonably
necessary to defend herself against what she perceived to be
a threat to her physical safety.” The judge therefore found
Lozoya guilty of simple assault.
C. Post-Trial
Following the trial, Lozoya again moved for a judgment
of acquittal under Rule 29, based on an argument relating to
venue. The magistrate judge denied the motion, finding her
challenge to venue waived and her motion therefore
untimely. The judge further concluded that the venue
challenge was meritless in any event, as “[18 U.S.C.]
§ 3237(a)’s broad language and the difficulties inherent in
pinpointing the exact location of a crime occurring on an
aircraft traveling in interstate commerce gave rise to venue
in the arriving district.”
Lozoya was ultimately sentenced to pay a fine of $750
and a special assessment of $10; she was not sentenced to
any custodial term.

App. 55a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 11 of 30

UNITED STATES V. LOZOYA

11

On August 11, 2016, Lozoya appealed to the district
court, raising the same three claims now before us. In an
eighteen-page order, the district court rejected her arguments
and affirmed the conviction. This timely appeal followed.
STANDARD OF REVIEW AND JURISDICTION
“We review de novo a district court’s application of, and
questions of law arising under, the Speedy Trial Act. We
review for abuse of discretion a district court’s decision to
dismiss an indictment without prejudice for a violation of the
Speedy Trial Act.” United States v. Lewis, 611 F.3d 1172,
1175 (9th Cir. 2010) (citations omitted). We review de novo
whether venue was proper. United States v. Hui Hsiung,
778 F.3d 738, 745 (9th Cir. 2015). We have jurisdiction
pursuant to 28 U.S.C. § 1291.
ANALYSIS
I. Speedy Trial Act
Lozoya was initially charged with a Class A
misdemeanor, to which the Act applies. See Boyd, 214 F.3d
at 1055.
The Act requires that “[a]ny information or indictment
charging an individual with the commission of an offense
shall be filed within thirty days from the date on which such
individual was arrested or served with a summons in
connection with such charges.” 18 U.S.C. § 3161(b).
Subsequently,
[i]n any case in which a plea of not guilty is
entered, the trial of a defendant charged in an
information or indictment with the
commission of an offense shall commence

App. 56a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 12 of 30

12

UNITED STATES V. LOZOYA
within seventy days from the filing date (and
making public) of the information or
indictment, or from the date the defendant
has appeared before a judicial officer of the
court in which such charge is pending,
whichever date last occurs.

Id. § 3161(c)(1). Failure to adhere to these limits results in
dismissal, which may be with or without prejudice. Id.
§ 3162(a). Because §§ 3161(b) and 3162(a)(1) “must be
read together,” the latter’s dismissal provision only applies
“when a suspect is formally charged at the time of, or
immediately following, arrest, or when a suspect is subject
to some continuing restraint on liberty imposed in
connection with the charge on which the subject is
eventually tried.” Boyd, 214 F.3d at 1055 (footnote
omitted).
Congress passed the Act to effectuate the Sixth
Amendment right to a speedy trial. United States v. Pollock,
726 F.2d 1456, 1459–60 (9th Cir. 1984). We noted in
Pollock that “Congress was concerned about a number of
problems—such as disruption of family life, loss of
employment, anxiety, suspicion, and public obloquy—that
vex an individual who is forced to await trial for long periods
of time.” Id. at 1460. Lozoya justifiably concludes that
“[b]y the time [she] appeared in court and was ordered to
return for trial, at the latest, these concerns were implicated.”
It would therefore be somewhat disconcerting if, as the
magistrate judge and district court concluded, the
government could hale Lozoya into court—which, it noted
in its answering brief, was consistent with its standard
practice of prosecuting misdemeanors—without triggering
the Act’s protections, even though the Act indisputably
applies to Class A misdemeanors.

App. 57a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 13 of 30

UNITED STATES V. LOZOYA

13

However, we find it unnecessary to determine whether
the government’s prolonged prosecution of Lozoya
constituted a violation of the Act. Even if she were correct
that either her initial September 16, 2015 appearance before
a magistrate judge or the purported restraint on her liberty2
triggered the Act’s thirty-day clock—and that therefore
dismissal pursuant to § 3162(a)(1) was required, because the
government did not file the required information until more
than four months later, on February 1, 2016—the magistrate
judge offered an alternative ruling that dismissal would have
been without prejudice:
Although this is a misdemeanor, I think the
allegations of an assault on a commercial
airliner are not necessarily minor charges. . . .
There’s an interest in justice. The court finds
in a resolution on the merits.
The only—the only evidence of prejudice is
this issue of contribution of attorney’s fees,
which the court doesn’t find that that is a
form of prejudice I think of the type that
would apply here to seeking a dismissal with
prejudice. And there’s no bad faith by the
government in terms of its actions here.
Although brief, this analysis indicates that the magistrate
judge considered the relevant factors—specifically, “the
seriousness of the offense; the facts and circumstances of the
2

At her initial court appearance, the magistrate judge ordered
Lozoya to contribute $200 per month towards attorneys’ fees, and
warned her of the possibility of an arrest warrant if she did not appear
for trial.

App. 58a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 14 of 30

14

UNITED STATES V. LOZOYA

case which led to the dismissal; and the impact of a
reprosecution on the administration of [the Act] and on the
administration of justice,” 18 U.S.C. § 3162(a)(1)—and did
not rely on any clearly erroneous factual assumptions.
Therefore, the court did not abuse its discretion when
making this determination, 3 and any erroneous application
of the Speedy Trial Act would not have changed the
outcome. Even if the Act had been violated in this case,
dismissal would have been without prejudice, leaving the
government free to file the superseding information on
which Lozoya was eventually convicted.
II. Venue
Although the government’s conduct did not violate the
Act, we conclude that reversal of Lozoya’s conviction is

3

The parties dispute which standard of review to apply to the
magistrate judge’s prejudice determination, but our precedent is clear:
“We review for abuse of discretion a district court’s decision to dismiss
an indictment without prejudice for a violation of the Speedy Trial Act.”
United States v. Lewis, 611 F.3d 1172, 1175 (9th Cir. 2010) (citing
United States v. Taylor, 487 U.S. 326, 332 (1988)). Lozoya suggests that
“the Supreme Court actually requires something more than typical
abuse-of-discretion review,” and cites language from the Court’s
decision in Taylor. See 487 U.S. 336–37 (“A judgment that must be
arrived at by considering and applying statutory criteria . . . constitutes
the application of law to fact and requires the reviewing court to
undertake more substantive scrutiny to ensure that the judgment is
supported in terms of the factors identified in the statute.”). But this
language merely offers color and content to guide our review. It does
not suggest that abuse of discretion is an inappropriate standard of
review, and it certainly does not, as Lozoya concludes, require de novo
review. Abuse of discretion remains, consistent with our pronouncement
in Lewis, the correct standard to apply.

App. 59a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 15 of 30

UNITED STATES V. LOZOYA

15

nonetheless required because venue was improper in the
Central District of California.
A. Waiver
As an initial matter, the government maintains that
Lozoya waived her venue argument by failing to raise it until
after the government’s case-in-chief. Our decision in United
States v. Ruelas-Arreguin, in which we “decide[d] whether
[a defendant] preserved his objection to venue when he
moved for a judgment of acquittal on grounds of improper
venue at the close of the government’s case,” is directly on
point. 219 F.3d 1056, 1060 (9th Cir. 2000). There, we held
that “[i]f a defect in venue is clear on the face of the
indictment, a defendant’s objection must be raised before the
government has completed its case.” Id. However, “if the
venue defect is not evident on the face of the indictment, a
defendant may challenge venue in a motion for acquittal at
the close of the government’s case.” Id.
Here, the superseding information alleged that Lozoya,
while “in Los Angeles County, within the Central District of
California and elsewhere,” assaulted another passenger on
Flight 2321. Therefore, on the face of the information, the
venue defect was not apparent. If true, the scant allegations
in the information would have proven that at least part of the
offense occurred in the Central District, and so venue there
would have been proper. See id. (“The indictment alleged
that [the defendant] was ‘found in’ the United States ‘within
the Southern District of California.’ On its face, therefore,
the indictment alleged proper venue because it alleged facts
which, if proven, would have sustained venue in the
Southern District of California.”). That Lozoya might have
known that venue was incorrect—and, as the government
notes, “possessed [the] Statement of Probable Cause, which
set forth that the assault took place about one-hour to one-

App. 60a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 16 of 30

16

UNITED STATES V. LOZOYA

hour-and-a-half before landing”—is immaterial, since “only
the indictment may be considered in pretrial motions to
dismiss for lack of venue, and [] the allegations must be
taken as true.” United States v. Mendoza, 108 F.3d 1155,
1156 (9th Cir. 1997).
Because venue was proper on the face of the superseding
information, Lozoya was permitted to move for acquittal on
venue grounds following the government’s case-in-chief,
and did not waive the issue. And, because she preserved the
issue for appeal, we review it de novo. See United States v.
Hernandez, 189 F.3d 785, 787 (9th Cir. 1999).
B. Whether Venue Was Proper in the Central
District of California
The government asserts that because “[t]he evidence at
trial showed—and [Lozoya] does not dispute—that Flight
2321 landed in Los Angeles,” and “also showed that [she]
assaulted the victim while the plane was in flight heading
toward Los Angeles,” it was therefore “entirely proper for
the government to bring the case in the Central District.”
Given our case law, as well as the Supreme Court’s guidance
on the proper determination of venue, we disagree.
“Article III of the Constitution requires that ‘[t]he Trial
of all Crimes . . . shall be held in the State where the said
Crimes shall have been committed.’” United States v.
Rodriguez-Moreno, 526 U.S. 275, 278 (1999) (alterations in
original) (quoting U.S. Const. art. III, § 2, cl. 3); see also
United States v. Lukashov, 694 F.3d 1107, 1119–20 (9th Cir.
2012) (exploring the interests underlying venue and noting
that it is “a question of fact that the government must prove
by a preponderance of the evidence”). To ascertain venue,

App. 61a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 17 of 30

UNITED STATES V. LOZOYA

17

the “‘locus delicti [of the charged offense]
must be determined from the nature of the
crime alleged and the location of the act or
acts constituting it.’” In performing this
inquiry, a court must initially identify the
conduct constituting the offense (the nature
of the crime) and then discern the location of
the commission of the criminal acts.
Rodriguez-Moreno, 526 U.S. at 279 (alteration in original)
(footnote and citation omitted) (quoting United States v.
Cabrales, 524 U.S. 1, 6–7 (1998)).
Here, Lozoya correctly asserts that “[t]he only essential
conduct element here is the assault,” and so the first prong
of this inquiry is straightforward. The second prong—the
location of the assault—is a trickier matter.
Lozoya demonstrates, and the government does not
dispute, that the trial evidence established that the brief
assault occurred before Flight 2321 entered the Central
District’s airspace. Therefore, there is no doubt that the
assault did not occur within the Central District of
California, since we have held that “the navigable airspace
above [a] district is a part of [that] district.” United States v.
Barnard, 490 F.2d 907, 911 (9th Cir. 1973).
In response, the government argues, and the magistrate
judge and district court agreed, that either of two statutes
conferred venue in the Central District. We consider each
statute in turn.

App. 62a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 18 of 30

18

UNITED STATES V. LOZOYA
i. Section 3237(a)

The government first argues that 18 U.S.C. § 3237
provided the needed statutory conferral of venue. The
relevant provision reads,
Except as otherwise expressly provided by
enactment of Congress, any offense against
the United States begun in one district and
completed in another, or committed in more
than one district, may be inquired of and
prosecuted in any district in which such
offense was begun, continued, or completed.
Any offense involving the use of the mails,
transportation in interstate or foreign
commerce, or the importation of an object or
person into the United States is a continuing
offense and, except as otherwise expressly
provided by enactment of Congress, may be
inquired of and prosecuted in any district
from, through, or into which such commerce,
mail matter, or imported object or person
moves.
18 U.S.C. § 3237(a) (emphases added).
We agree with Lozoya that the first paragraph of
§ 3237(a) does not apply here. By its plain text and obvious
meaning, it concerns continuing offenses that occur in
multiple districts. See Barnard, 490 F.2d at 910–11
(applying § 3237(a) in a case where the defendant imported
marijuana from Mexico into the Central District, and
concluding that venue in the Southern District of California
was proper because the offense continued through its
airspace).
Here, by contrast, Lozoya’s offense—the

App. 63a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 19 of 30

UNITED STATES V. LOZOYA

19

assault—occurred in an instant and likely in the airspace of
only one district, and the government did not prove that any
part of that assault occurred once Flight 2321 entered the
airspace over the Central District; indeed, it concedes that
the assault ended before then. Section 3237(a) does not
provide a basis for extending venue into the Central District
simply because Flight 2321 continued into its airspace after
the offense was complete. Once the assault had concluded,
any subsequent activity was incidental and therefore
irrelevant for venue purposes. See United States v. Stinson,
647 F.3d 1196, 1204 (9th Cir. 2011) (“Venue is not proper
when all that occurred in the charging district was a
‘circumstance element . . . [that] occurred after the fact of an
offense begun and completed by others.’” (alterations in
original) (quoting Rodriguez-Moreno, 526 U.S. at 280 n.4)).
The magistrate judge also determined that § 3237(a)’s
second paragraph supported the government’s position. But
that paragraph, in relevant part, pertains to “offense[s]
involving the . . . transportation in interstate or foreign
commerce.” 18 U.S.C. § 3237(a). The government
maintains that “[b]ecause the charged offense involved
transportation in interstate commerce, it was a continuing
offense” for purposes of § 3237(a). This assertion is
untenable, however, because although the assault occurred
on a plane, the offense itself did not implicate interstate or
foreign commerce. Cf. United States v. Morgan, 393 F.3d
192, 200 (D.C. Cir. 2004) (“[R]eceipt of stolen property . . .
is not an ‘offense involving’ transportation in interstate
commerce, for it does not require any such transportation for
the commission of the offense.”). Here, the conduct
constituting the offense was the assault, which had nothing
to do with interstate commerce. As Lozoya notes, “[T]he
jurisdictional element requiring the offense to have occurred
on an aircraft does not convert the offense to one that

App. 64a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 20 of 30

20

UNITED STATES V. LOZOYA

involves transportation in interstate commerce,” and even if
it could be so construed, if would not be a conduct element
of the offense, but rather a “circumstance element” that does
not support venue. Stinson, 647 F.3d at 1204; see also
United States v. Auernheimer, 748 F.3d 525, 533 (3d Cir.
2014) (“Only ‘essential conduct elements’ can provide the
basis for venue; ‘circumstance elements’ cannot.” (quoting
United States v. Bowens, 224 F.3d 302, 310 (4th Cir. 2000))).
It is true, as recognized by the district court, the
magistrate judge, and the government, that other circuits
have rejected our interpretation of § 3237(a) in cases with
similar facts. However, the reasoning in those cases is not
persuasive. In United States v. Breitweiser, 357 F.3d 1249
(11th Cir. 2004), the Eleventh Circuit determined that an
inflight assault could be prosecuted where the aircraft
landed, but it did not analyze the conduct of the charged
offense, as required by Rodriguez-Moreno. Instead, the
court merely emphasized that “[i]t would be difficult if not
impossible for the government to prove, even by a
preponderance of the evidence, exactly which federal district
was beneath the plane when [the defendant] committed the
crimes.” Id. at 1253. In reaching this decision, the
Breitweiser court relied primarily on a pre-RodriguezMoreno case, United States v. McCulley, 673 F.2d 346 (11th
Cir. 1982), which had concluded that § 3237 “is a catchall
provision designed to prevent a crime which has been
committed in transit from escaping punishment for lack of
venue” without citing any authority for that proposition. Id.
at 350. 4 Similarly, the Tenth Circuit in United States v.
4

Certain aspects of the legislative history suggest that § 3237 might
have been intended as something of a catchall provision. As part of
Congress’s revision of Title 18 during the 1940s, the venue provisions
for several enumerated crimes were omitted because they were “covered

App. 65a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 21 of 30

UNITED STATES V. LOZOYA

21

Cope, 676 F.3d 1219 (10th Cir. 2012), simply relied on
Breitweiser, without considering Rodriguez-Moreno or the
conduct of the offense with which the defendant was
charged. Id. at 1225. Accordingly, we decline to adopt the
reasoning or holding of these opinions.
ii. Section 3238
Alternatively, the district court concluded that venue was
proper under § 3238, which provides that “[t]he trial of all
offenses begun or committed upon the high seas, or
elsewhere out of the jurisdiction of any particular State or
district, shall be in the district in which the offender, or any
one of two or more joint offenders, is arrested or is first
brought . . . .” 18 U.S.C. § 3238. To support application of
by section 3237.” H.R. Rep. No. 79-152, at A109, A112, A120, A133–
35 (1945); see also H.R. Rep. No. 80-304, at A161 (1947) (indicating
that § 3237 “was completely rewritten to clarify legislative intent and in
order to omit special venue provisions from many sections”). But one
relevant report also explained that
[t]he phrase “committed in more than one district”
may be comprehensive enough to include “begun in
one district and completed in another”, but the use of
both expressions precludes any doubt as to legislative
intent. . . . The revised section removes all doubt as to
the venue of continuing offenses and makes
unnecessary special venue provisions . . . .
H.R. Rep. No. 80-304, at A161 (emphasis added). If the purpose of
§ 3237 were to “make[] unnecessary special venue provisions,” then a
catchall intent might be inferred, but this report also clarified that § 3237
was directed at continuing offenses, not to offenses generally. And at
any rate, even if the legislative history were more conclusive, the text of
§ 3237 is not ambiguous, and “we do not resort to legislative history to
cloud a statutory text that is clear.” Ratzlaf v. United States, 510 U.S.
135, 147–48 (1994).

App. 66a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 22 of 30

22

UNITED STATES V. LOZOYA

this statute to the facts here, the district court relied on
United States v. Walczak, 783 F.2d 852 (9th Cir. 1986),
which is readily distinguishable. There, the defendant made
a false statement in Canada—an offense committed outside
U.S. borders—and so the court concluded that venue was
proper in the U.S. district where the defendant was later
arrested. Id. at 853–55. That holding was consistent with
the rule that “§ 3238 does not apply unless the offense was
committed entirely on the high seas or outside the United
States (unless, of course, the offense was ‘begun’ there).”
United States v. Pace, 314 F.3d 344, 351 (9th Cir. 2002).
Although the government argues that “[j]ust as offenses
committed on the ‘high seas’ are considered to be outside the
jurisdiction of any particular state or district, offenses
committed in the ‘high skies’ are similarly not committed,”
that position is at odds with our binding precedent, which
holds that “the navigable airspace above [a] district is a part
of the district.” Barnard, 490 F.2d at 911 (emphasis added).
Here, the assault occurred entirely within the jurisdiction of
a particular district. It neither began nor was committed
entirely outside the United States, and so § 3238 is
inapplicable.
C. Remedy
“When venue has been improperly laid in a district, the
district court should either transfer the case to the correct
venue upon the defendant’s request, or, in the absence of
such a request, dismiss the indictment without prejudice.”
Ruelas-Arreguin, 219 F.3d at 1060 n.1 (citation omitted)
(citing Fed. R. Crim. P. 21(b); United States v. Kaytso,
868 F.2d 1020, 1021 (9th Cir. 1988)). 5 We therefore direct
5

Lozoya observes that there is a circuit conflict concerning the
appropriate remedy when the government fails to prove venue at trial,

App. 67a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 23 of 30

UNITED STATES V. LOZOYA

23

the district court, on remand, to dismiss the charge without
prejudice, unless Lozoya consents to transfer the case to the
proper district.
The proper district is, pursuant to our reasoning and
holding, the district above which the assault occurred. The
government stressed at oral argument that it would be
“impossible” to pinpoint this location, but we are not so
pessimistic. There is no doubt that such an undertaking
would require some effort. At the time Flight 2321 made its
Minneapolis-to-Los Angeles run in December 2018, it
apparently traveled at an average speed 368 miles-per-hour,
and its route map suggests that is crossed over at least eight
different districts during its flight time.6 But Sullivan, Flight
2321’s lead flight attendant, testified (for the government,
incidentally) that the flight lasted “[a]pproximately three
hours,” that he received word of “an assault of some sort”
“at least an hour” after takeoff, that he spent “30 to
45 minutes at least” investigating the incident, and that the
captain made the announcement that the aircraft would soon
be landing—which usually occurs “[t]wenty-five minutes
before landing”—after Sullivan finished his investigation.
Accordingly, it seems wholly reasonable, using this and
other testimony as well as flight data, for the government to
determine where exactly the assault occurred by the
and urges us to adopt the approach taken by the Fifth and Eighth
Circuits—remanding for a judgment of acquittal. See United States v.
Strain, 407 F.3d 379, 379–80 (5th Cir. 2005); United States v. Greene,
995 F.2d 793, 801 (8th Cir. 1993). But we are bound by RuelasArreguin, and will follow the remedy prescribed in that opinion.
6

See DL2321 Delta Air Lines Flight: Minneapolis to Los Angeles
22/12/2018, Airportia, http://www.airportia.com/flights/dl2321/minnea
polis/los_angeles/2018-12-22 (last visited Apr. 4, 2019).

App. 68a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 24 of 30

24

UNITED STATES V. LOZOYA

preponderance of the evidence necessary to establish venue.
See Lukashov, 694 F.3d at 1120.
We acknowledge a creeping absurdity in our holding. 7
Should it really be necessary for the government to pinpoint
where precisely in the spacious skies an alleged assault
occurred? Imagine an inflight robbery or homicide—or
some other nightmare at 20,000 feet—that were to occur
over the northeastern United States, home to three circuits,
fifteen districts, and a half-dozen major airports, all in close
proximity. How feasible would it be for the government to
prove venue in such cluttered airspace? And given that the
purpose of venue is to prevent “the unfairness and hardship
to which trial in an environment alien to the accused exposes
him,” United States v. Johnson, 323 U.S. 273, 275 (1944), is
it not fair to conclude, as the First Circuit did, that setting
venue in a district where a plane lands “creates no unfairness
to defendants, for an air passenger accused of a crime of this
type is unlikely to care whether he is tried in one rather than
another of the states over which he was flying”? United
States v. Hall, 691 F.2d 48, 50–51 (1st Cir. 1982).
However valid these questions and the practical concerns
that underlie them might be, they are insufficient to
overcome the combined force of the Constitution,
Rodriguez-Moreno, and our own case law. These authorities
compel our conclusion: that the proper venue for an assault
7

The dissent suggests that the Supreme Court’s admonition that
“interpretations of a statute which would produce absurd results are to
be avoided” requires that we reach a contrary conclusion, Dissent at 28
(quoting Griffin v. Oceanic Contractors, Inc., 458 U.S. 564, 575 (1982)),
but that canon does not permit us to ignore the plain texts of the statutes
at issue. See United States v. Ezeta, 752 F.3d 1182, 1184 (9th Cir. 2014)
(“In interpreting a criminal statute, we begin with the plain statutory
language.”).

App. 69a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 25 of 30

UNITED STATES V. LOZOYA

25

on a commercial aircraft is the district in whose airspace the
alleged offense occurred. The dissent contends that common
sense supports the positions of the Tenth and Eleventh
Circuits, as well as its own conclusion. Dissent at 28–29.
Fair enough. But while “there is no canon against using
common sense in construing laws as saying what they
obviously mean,” Roschen v. Ward, 279 U.S. 337, 338
(1929), the statutes at issue here are not obviously
applicable, and we cannot ignore the binding effect of
precedent and the Constitution.
Congress
can—consistent
with
constitutional
requirements, of course—enact a new statute to remedy any
irrationality that might follow from our conclusion. Indeed,
we share the dissent’s hope, considering the “significant
increase” in inflight criminal activities and the myriad
federal offenses that can occur on an aircraft, Dissent at 26–
27, 29, that Congress will address this issue by establishing
a just, sensible, and clearly articulated venue rule for this and
similar airborne offenses.
For now, though, if the
government wishes to reprosecute Lozoya, it will need to
dust off its navigational charts and ascertain where in U.S.
airspace her hand made contact with Wolff’s face. We know
that it did not happen in the Central District of California.
That conclusion provides sufficient ground to reverse
Lozoya’s conviction. 8

8

Lozoya also contends that the magistrate judge applied the wrong
legal standard for self-defense when rendering the guilty verdict. The
parties agree that “[t]he government must prove beyond a reasonable
doubt that [a] defendant did not act in reasonable self-defense,” which
becomes an element of the charged offense. Manual of Model Criminal
Jury Instructions for the District Courts of the Ninth Circuit § 6.8 (Ninth
Cir. Jury Instructions Comm. 2010). But because improper venue

App. 70a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 26 of 30

26

UNITED STATES V. LOZOYA
CONCLUSION

We conclude that the proper venue for Lozoya’s
prosecution is the district in whose airspace the assault
occurred. Because the parties do not dispute that the assault
ended before Flight 2321 entered the airspace of the Central
District of California, venue in that district was improper.
We therefore REVERSE Lozoya’s conviction and
REMAND for further proceedings consistent with this
opinion.

OWENS, Circuit Judge, concurring in part and dissenting in
part:
While I agree with much of the majority opinion, I
disagree with its ultimate holding on venue, which creates a
circuit split and makes prosecuting crimes on aircraft
(including cases far more serious than this one) extremely
difficult.
The friendly skies are not always so friendly. You do
not need to watch Passenger 57, Flightplan, Turbulence, or
even the vastly underrated Executive Decision to know that
dangerous criminal activity occurs on airplanes. For
example, federal law enforcement has tracked a significant
increase in sexual assaults on airplanes in recent years

provides sufficient ground to reverse Lozoya’s conviction, we need not
determine whether the magistrate judge applied the wrong standard.

App. 71a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 27 of 30

UNITED STATES V. LOZOYA

27

(including abuse of children), and yet there remains little
ability to combat these crimes 30,000 feet in the air. 1
Congress recognized this problem over 50 years ago
when it passed comprehensive legislation to protect flight
crews and passengers from serious crimes. See Federal
Aviation Act Amendments of 1961, Pub. L. No. 87-197, 75
Stat. 466, 466–68. Congress extended the application of
certain federal criminal laws, including the assault statute at
issue in this case, to acts on airplanes to combat the “unique
problems” involved in determining jurisdiction for state
prosecutions:
In this age of jet aircraft a moment of time
can mean many miles have been traversed.
Present aircraft pass swiftly from county to
county and from State to State. As a result
serious legal questions can arise as to the situs
of the aircraft at the time the crime was
committed. The question as to the law of
which jurisdiction should apply to a given
offense can be the subject of endless debate,
and excessive delay in the prosecution
becomes inevitable.
The difficulties
encountered by the overflown State in
1

See Sexual Assault Aboard Aircraft, FBI (Apr. 26, 2018),
https://www.fbi.gov/news/stories/raising-awareness-about-sexual-assau
lt-aboard-aircraft-042618 (reporting that sexual assaults aboard aircraft
are “on the rise”); Lynh Bui, Sexual Assaults on Airplanes are
Increasing, FBI Warns Summer Travelers, Wash. Post (June 20, 2018),
https://www.washingtonpost.com/local/public-safety/sexual-assaults-on
-airplanes-are-increasing-fbi-warns-summer-travelers/2018/06/20/64d5
4598-73fd-11e8-b4b7-308400242c2e_story.html (FBI in Maryland
alerting the public that sexual assaults on commercial flights are
“increasing every year . . . at an alarming rate”).

App. 72a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 28 of 30

28

UNITED STATES V. LOZOYA
collecting evidence sufficient to support an
indictment are obvious . . . . “To contrast, if
the offense were also a crime under Federal
law, the aircraft would be met on landing by
Federal officers. The offender could be taken
into custody immediately and the criminal
prosecution instituted.”

S. Rep. No. 87-694, at 2–3 (1961) (quoting the testimony of
Najeeb Halaby, Administrator of the Federal Aviation
Agency). Until now, no court has disturbed the ability to
prosecute federal offenders in the district where the airplane
landed. See United States v. Cope, 676 F.3d 1219, 1224–25
(10th Cir. 2012); United States v. Breitweiser, 357 F.3d
1249, 1253–54 (11th Cir. 2004); United States v. McCulley,
673 F.2d 346, 349–50 (11th Cir. 1982); cf. United States v.
Hall, 691 F.2d 48, 50–51 (1st Cir. 1982).
I acknowledge that the venue provision at issue—the
second paragraph of 18 U.S.C. § 3237(a)—could be clearer.
But considering what the majority recognizes as the
“creeping absurdity” of its position, Majority Opinion 24, we
should heed the advice of our court—and the Supreme
Court—that “statutory interpretations which would produce
absurd results are to be avoided.” United States v. LKAV,
712 F.3d 436, 440 (9th Cir. 2013) (citation and alteration
omitted); see also Rowland v. Cal. Men’s Colony, 506 U.S.
194, 200 (1993) (describing “the common mandate of
statutory construction to avoid absurd results”); Griffin v.
Oceanic Contractors, Inc., 458 U.S. 564, 575 (1982) (stating
that “interpretations of a statute which would produce absurd
results are to be avoided”). I agree with the Tenth and
Eleventh Circuits that the “transportation in interstate . . .
commerce” language in § 3237(a) covers the conduct at
issue here. It may be that the Tenth and Eleventh Circuits’

App. 73a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 29 of 30

UNITED STATES V. LOZOYA

29

opinions are not “tenure track” in their analyses, but not
every legal question requires a law review article.
Sometimes, common sense is enough.
The troubling result of this case is not limited to these
rather innocuous facts. It applies to any offense that the
majority deems non-continuous, which includes sexual
assault, murder, and so on. See 49 U.S.C. § 46506 (applying
certain criminal laws to acts on aircraft, including, but not
limited to, 18 U.S.C. §§ 113 (assaults), 114 (maiming), 661
(theft), 1111 (murder), 1112 (manslaughter), 2241
(aggravated sexual abuse), and 2243 (sexual abuse of a
minor or ward)).
Nor is the result limited to the smaller states of the
Northeastern United States. See Majority Opinion 24.
Under the majority’s rule, the government must prove which
district—not merely which state—an airplane was flying
over when the crime was committed. A flight from San
Francisco to Houston potentially crosses eight judicial
districts. A flight from San Francisco to Miami crosses far
more. Asking a traumatized victim, especially a child, to
pinpoint the precise minute when a sexual assault occurred
is something I cannot imagine the Framers intended, or the
more recent Congress wished when it enacted our venue and
flight laws. Yet without the precision that the majority now
requires, prosecutions of violent crimes on board aircraft
could be impossible. In fact, the government insists that it
cannot pinpoint when the assault occurred in this case, and I
doubt that the majority’s back-of-the-envelope calculation
will be of much assistance. See Majority Opinion 23–24.
Venue in criminal cases protects defendants’ rights to a
fair trial. But here, limiting venue to a “flyover state,” where
the defendant and potential witnesses have no ties, makes no
sense. In contrast, a prosecution in the landing district

App. 74a

Case: 17-50336, 04/11/2019, ID: 11260313, DktEntry: 34-1, Page 30 of 30

30

UNITED STATES V. LOZOYA

“creates no unfairness to defendants.” Hall, 691 F.2d at 50.
And a defendant who is truly inconvenienced may request a
transfer of venue. Fed. R. Crim. P. 21(b).
I respectfully dissent, and urge the Supreme Court (or
Congress) to restore quickly the just and sensible venue rule
that, until now, applied to domestic air travel.

App. 75a

Appendix D

App. 76a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 1 of 18 Page ID #:1091

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

UNITED STATES OF AMERICA

Case No. CR 16-00598-AB
ORDER AFFIRMING MAGISTRATE
JUDGE’S ORDER

Plaintiff,

12
13

v.

14

MONIQUE LOZOYA,
Defendant.

15
16
17

Before the Court is Defendant-Appellant Monique Lozoya’s (“Appellant”)

18
19

timely appeal of a magistrate judge’s August 12, 2016 order, which found Appellant

20

guilty of simple assault on an aircraft. For the following reasons, the Court

21

AFFIRMS the magistrate judge’s order.

22

I.

BACKGROUND

23

A. Factual Background

24

On July 19, 2015, Appellant, Appellant’s boyfriend Joshua Moffie (“Moffie”),

25

Oded Wolff, and Wolff’s wife Merav, were passengers on Delta Airlines red-eye

26

Flight 2321 (“Flight 2321”) from Minneapolis to Los Angeles. Reporter’s Transcript

27

of Court Trial (“Rep.’s Tr. of Ct. Trial,” Dkt No. 8) at 16, 46, 113, 143-144.

28

Appellant was in the seat in front of Wolff. (Id. at 23.) At trial, Wolff testified
1.

App. 77a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 2 of 18 Page ID #:1092

1

he had minimal contact with the back of Appellant’s chair: he touched the television

2

screen once to try to turn it off, and didn’t, to his knowledge, kick the seat. (Id. at 18-

3

19.) Yet, when Wolff was returning from the restroom, Appellant asked him to “stop

4

tapping on the screen.” (Id. at 19-20.) He testified that he responded, “What are you

5

talking about?” and that Appellant, who was seated, then turned towards him and hit

6

him in the face. (Id. at 20-22.) Wolff also stated he never raised his hand or came

7

towards Appellant. (Id. at 23-24.) Merav supported Wolff’s characterization of the

8

incident. (Id. at 46-61.) Namely, Merav testified Wolff never raised his hands before

9

or after he was hit, rather, they remained on his and Appellant’s seats. (Id. at 52-53.)

10

In contrast, Appellant testified she was unable to sleep because her seat was

11

repeatedly disturbed by Wolff, who was sitting directly behind her. (Id. at 145-146.)

12

While Wolff was returning from the restroom, Appellant claimed she, seated with her

13

seatbelt on, politely asked Wolff to stop hitting the back of her seat. (Id. at 146-148.)

14

Wolff, who was then standing above Appellant, interrupted her by rudely shouting

15

“What?” in a “very loud an abrasive tone.” (Id. at 148.) Appellant tried to calmly

16

repeat her request, but was again interrupted by Wolff. (Id. at 148.) Appellant

17

testified she then observed Wolff’s hand move quickly towards her, ultimately coming

18

within a half-inch of her face. (Id. at 148, 162-163.) Appellant claimed she feared

19

being hit, and so, she instinctively reacted by attempting to push Wolff away with an

20

open hand. (Id. at 149.) Appellant testified she never wanted to get into an altercation

21

with Wolff, and has never been in a physical altercation of any kind prior to this event.

22

(Id. at 150-151.) Although she was neither aiming at Wolff, nor intending to make

23

physical contact with him, her open hand made contact with his face. (Id. at 149-150,

24

155.) Had Appellant had time to think, she would have tried to move her head or push

25

his hand away. (Id. at 164.) Lastly, Appellant testified she was “very sorry right

26

now” and had she “known that he wasn’t going to hit [her] or if he didn’t induce that

27

feeling of fear, [she] would have never done that in the first place.” (Id. at 155-156.)

28

Though Wolff denied being so disruptive, the testimony of Charles Goocher
2.

App. 78a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 3 of 18 Page ID #:1093

1

(“Goocher”), a passenger seated to the right of Appellant on Flight 2321, corroborated

2

Appellant’s characterization of Wolff’s disruptive behavior. (Id. at 133-139.)

3

Additionally, Moffie, who was seated to the left of Appellant on Flight 2321,

4

supported Appellant’s characterization of the incident, and testified he was able to

5

peripherally observe Wolff’s hand move toward her. (Id. at 112-131.)

6

Flight attendants subsequently separated the parties and the lead flight

7

attendant, Terry Sullivan (“Sullivan”), investigated the incident. (Id. at 67.) Sullivan

8

testified that Appellant told him Wolff had raised his hand towards her and it was her

9

“natural response” to hit him because she feared being hit herself. (Id. at 68-69.) He

10

also described Appellant’s demeanor as “visibly shaken and upset.” (Id. at 75.)

11

B. Procedural Background

12

On July 20, 2015, Wolff informed the Federal Bureau of Investigation (“FBI”)

13

of the altercation he had with Appellant on Flight 2321, and FBI Special Agent

14

Meredith Burke (“SA Burke”) began her investigation into the matter. Excerpts of

15

Record Volume 1 (“Excerpts of R. Vol. 1,” Dkt. No. 16-1), Statement of Probable

16

Cause at 7. Through the course of her investigation, SA Burke conducted several

17

interviews, which she provides in pertinent part in her August 7, 2015 “statement of

18

probable cause.” (Id. at 7-20.) With respect to when the alleged assault occurred, the

19

following was established.

20

On July 20, 2015 SA Burke interviewed Wolff, who stated that “approximately

21

one hour before landing, [he] and Merav got out of their seats to use the restroom.”

22

(Id. at 9.) Wolff alleged the incident between him and Appellant occurred when he

23

returned to his seat. (Id.) On July 21, 2015, SA Burke interviewed Merav, who also

24

claimed the incident between Wolff and Appellant occurred “approximately an hour

25

before landing,” when she and Wolff returned from the restroom. (Id.at 11.) On July

26

31, 2015, SA Burke interviewed Sullivan, who claimed the assault in question

27

“occurred approximately 90 minutes before landing.” (Id. at 11-12.) That same day,

28

SA Burke also interviewed Divone Morris (“Morris”), another flight attendant on
3.

App. 79a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 4 of 18 Page ID #:1094

1

Flight 2321, who “described himself as a first responder to the physical assault[.]”

2

(Id. at 14.) Morris alleged “[a]pproximately 90 minutes after take-off . . . [h]e noticed

3

that there was an altercation going on between passengers.” (Id. at 15.) Morris also

4

claimed he heard Wolff say, “[s]he just punched me in the nose[,]” but did not

5

personally witness Appellant hit Wolff. (Id. at 15.) On August 5, 2015, SA Burke

6

interviewed Appellant who alleged, like Wolff and Merav, that “[a]pproximately one

7

hour before landing, Wolff got up to use the restroom[,]” and the incident occurred

8

when Wolff returned. (Id. at 18-19.)

9

On August 11, 2015, SA Burke issued a Violation Notice (Excerpts of R. Vol.

10

1, Violation Notice (Violation No. 3998525) at 6) stating the reasons why she

11

believed there was probable cause to allege that “[Appellant] violated Title 18, United

12

States Code, Section 113(a) (4), assault by striking, beating or wounding, when she

13

struck Delta Air Lines passenger [Wolff].” (Excerpts of R. Vol. 1, Statement of

14

Probable Cause at 20.) SA Burke attached the “statement of probable cause” (Id. at 7-

15

20) to the Violation Notice. (Excerpts of R. Vol. 1, Violation Notice at 6.) In

16

Appellant’s Opening Brief, she alleges SA Burke’s “statement of probable cause”

17

(Excerpts of R. Vol. 1, Statement of Probable Cause) is the type of statement

18

“typically used to support a complaint,” and “the government instead drafted a

19

citation that was signed by the agent on August 11, nearly a month after the alleged

20

offense.” (Appellant’s Opening Br. at 3.)

21

Appellant made her first court appearance on September 16, 2015. (Excerpts of

22

R. Vol. 1, Transcript of Violation Proceeding at 21-31.) There the government

23

mistakenly informed Appellant she was charged with a Class B misdemeanor,

24

Appellant entered a not-guilty plea, and the magistrate judge set the matter for trial on

25

February 4, 2016. (Id. at 29-30.) On January 14, 2016, Appellant filed a motion to

26

dismiss on the grounds that the charge violated the Federal Rules of Criminal

27

Procedure and the Speedy Trial Act. (Excerpts of R. Vol. 1, Appellant’s First Motion

28

to Dismiss (“Appellant’s First Mot. to Dismiss”) at 34-41.) On February 1, 2016, the
4.

App. 80a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 5 of 18 Page ID #:1095

1

government filed an Information that charged Appellant with assaulting Wolff by

2

intentionally striking him while on a civil aircraft within the “special aircraft

3

jurisdiction of the United States (49 U.S.C. Section 46505 and 18 U.S.C. Section

4

113(a) (4)), a Class A misdemeanor. (Excerpts of R. Vol. 1, Information at 71-72.)

5

On February 4, 2016, the magistrate judge conducted a hearing on Appellant’s first

6

motion to dismiss, where the court found the Speedy Trial Act had not been violated,

7

and therefore denied Appellant’s motion. (Excerpts of R. Vol. 1, February 4, 2016

8

Motion Hearing (“Feb. 4, 2016 Mot. Hr’g”) at 73-105.)

9

On February 9, 2016, Appellant was arraigned on the Class A Misdemeanor

10

Information; she pled not guilty and a status conference was scheduled for February

11

24, 2016. (Dkt. No. 21, Government’s Answering Brief at 15.) On February 24,

12

2016, the court set a motions hearing date of March 29, 2016. (Id.) On March 15,

13

2016, Appellant filed her second motion to dismiss on the grounds that her charge

14

violates the Speedy Trial Act and the Fifth Amendment. (Excerpts of R. Vol. 1,

15

March 15, 2016 Motion to Dismiss (“Appellant’s Second Mot. to Dismiss”) at 106-

16

122.) Additionally, on March 28, 2016, Appellant filed a third motion to dismiss the

17

Information with prejudice pursuant to Federal Rule of Criminal Procedure

18

12(b)(3)(A). (Excerpts of R. Vol. 1, March 28, 2016 Motion to Dismiss (“Appellant’s

19

Third Mot. to Dismiss”) at 140-145.)

20

A “superseding Information” was filed on March 29, 2016, which charged

21

Appellant with simple assault, a Class B Misdemeanor. (Excerpts. Of R. Vol. 1,

22

Superseding Information at 198-199.) Appellant also had a hearing on her motions on

23

March 29, 2016 (Excerpts of R. Vol. 1, March 29, 2016 Motion Hearing (“March 29,

24

2016 Mot. Hr’g”) at 145-197), and on March 31, 2016, the court denied Appellant’s

25

second and third motion to dismiss because it found (1) the “superseding Information”

26

rendered any arguments regarding violations of the Speedy Trial Act “moot” and, (2)

27

there was no defect in instituting the prosecution. (Excerpts of R. Vol. 1, Order on

28

Motion to Dismiss at 200.) On April 5, 2016, Appellant was arraigned on the
5.

App. 81a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 6 of 18 Page ID #:1096

1

superseding information (Rep.’s Tr. of Ct. Trial at 5-9) and fifteen minutes later, her

2

bench trial began. (Rep.’s Tr. of Ct. Trial at 9-197.)

3

At trial, the government called Wolff, Merav, Sullivan and SA Burke to testify.

4

(Id. at 16, 46, 62, 80.) Once the government rested (Id. at 98-99), Appellant made a

5

Federal Rule of Civil Procedure Rule 29 (“Rule 29”) motion for judgment of acquittal.

6

(Id. at 98-99.) Specifically, Appellant argued that in light of all the facts and evidence

7

presented by the government, the government had not proved venue in the Central

8

District of California. (Id. at 99.) The court denied Appellant’s motion holding that

9

under 18 U.S.C. 3237(a), “venue is proper in any district through which the flight

10

traveled, and that would include the Central District of California where [Flight 2321]

11

came to an end.” (Id. at 99.)

12

The defense then called Morris, Moffie, Goocher and Appellant to testify. (Id.

13

at 103, 112, 133, 140.) At the close of their case, the defense renewed their Rule 29

14

motion “on all grounds, all evidence, including venue,” which the court again denied.

15

(Id. at 176-177.) The court ultimately found Appellant “guilty as charged of the

16

offense” and held, “based on the testimony presented that [Appellant] used more force

17

than what was reasonably necessary to defend herself against what she perceived to be

18

a threat to her physical safety[.]” (Id. at 192-193.) Lastly, the court found

19

“inconsistencies regarding her perceived threat from the victim, and . . . that the

20

testimony of the [Appellant’s] witnesses were themselves inconsistent and failed to

21

establish beyond a reasonable doubt that the [Appellant] was in a position where she

22

felt threatened.” (Id. at 193.)

23

Following trial, Appellant moved for Rule 29 judgment of acquittal on the basis

24

of improper venue. (Dkt No. 16-2, Excerpts of Record Volume 2 (“Excerpts of R.

25

Vol. 2”), April 20, 2016 Motion for Judgment of Acquittal at 209- 243.) The court

26

denied the motion, finding it meritless for the same reasons as before, and untimely.

27

(Excerpts of R. Vol. 2, Order on Appellant’s Motion for Judgment of Acquittal at 264-

28

276.)
6.

App. 82a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 7 of 18 Page ID #:1097

1

On August 11, 2016, the court sentenced Appellant to pay a special assessment

2

of $10, a fine of $ 750, and no restitution. (Excerpts of R. Vol. 2, August 11, 2016

3

Sentencing at 285-287.)

4

Appellant appeals on the grounds that: (1) the government failed to comply

5

with the Speedy Trial Act, which would have required dismissal of the case with

6

prejudice, and thus would have precluded the trial that led to Appellant’s

7

conviction;(2) the government failed to prove venue, which would have required

8

dismissal of the case; and, (3) the magistrate judge committed legal error by requiring

9

Appellant to establish beyond a reasonable doubt that she acted in reasonable self-

10

defense, rather than requiring the government to establish beyond a reasonable doubt

11

that she did not. (Appellant’s Opening Br. at 1.)

12

II.

LEGAL STANDARD

13

For petty offenses and other misdemeanors, the scope of an appeal from a

14

magistrate judge’s order or judgment “is the same as in an appeal to the court of

15

appeals from a judgment entered by a district judge.” Fed. R. Crim. P. 58(g)(D).

16

The Ninth Circuit reviews a “district court’s interpretation and application of

17

the Speedy Trial Act de novo, and review[s] the district court’s findings of facts for

18

clear error.” United States v. Medina, 524 F.3d 974, 982 (9th Cir. 2008); see also

19

United States v. Martinez-Martinez, 369 F.3d 1076, 1084 (9th Cir. 2004). The burden

20

of proving the Speedy Trial Act was violated “generally lies with the defendant.”

21

Medina, 524 F.3d at 982.

22

As the Fifth Circuit has pointed out, “[t]he issue of venue continues to create

23

confusion when challenged on appeal, particularly because of the differing waiver

24

rules applicable to venue[.]” United States v. Carreon-Palacio, 267 F.3d 381, 390

25

(5th Cir. 2001). The Ninth Circuit “address[es] the existence of venue as a question of

26

law reviewed de novo.” United States v. Hernandez, 189 F.3d 785, 787 (9th Cir.

27

1999). This standard of review extends to an appeal of a court’s denial of a motion for

28

judgment of acquittal on the basis of improper venue. United States v. Delgado, 545
7.

App. 83a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 8 of 18 Page ID #:1098

1

F.3d 1195, 1200 (9th Cir. 2008) (quoting United States v. Lee, 472 F.3d 638, 641 (9th

2

Cir. 2006)) (applying a de novo standard of review where the defendant challenged

3

the district court’s denial of his motion for judgment of acquittal due to improper

4

venue); accord United States v. Knox, 540 F.3d 708, 713 (7th Cir. 2008) (“The

5

general rule is that we review de novo a district court’s denial of a motion for

6

judgment of acquittal due to improper venue.”).

7

Lastly, “[w]hether the magistrate judge improperly shifted the burden of proof

8

to the defendant is reviewed de novo[.]” United States v. Coutchavlis, 260 F.3d 1149,

9

1156 (9th Cir. 2001); see also United States v. Brobst, 558 F.3d 982, 998 (9th Cir.

10

2009).

11

III.

DISCUSSION

12

A. Speedy Trial Act

13

On August 11, 2016, Appellant was issued a Violation Notice (Violation No.

14

3998525) which charged her with violating “Title 18, United States Code, Section 113

15

(a) (4), assault by striking, beating or wounding, when she struck Delta Air Lines

16

passenger [Wolff].” (Excerpts of R. Vol. 1, Statement of Probable Cause at 20.) The

17

maximum sentence for this offense is one year in jail, and is therefore classified as a

18

Class A misdemeanor. 18 U.S.C. § 3559(a)(6) (Classifying “one year or less but more

19

than six months, as a Class A misdemeanor.”). Appellant therefore argues, under 18

20

U.S.C. § 3172(2), the Speedy Trial Act applies to her charge. (Appellant’s Opening

21

Br. at 24.) Yet, Appellant alleges, magistrate judges improperly denied her motions to

22

dismiss the charge. (Excerpts of R. Vol. 1, Feb. 4, 2016 Mot. Hr’g at 73-105;

23

Excerpts of R. Vol. 1, Order on Motion to Dismiss at 200.) Specifically, Appellant

24

challenges the magistrate judges’ decisions to deny both her motions on the grounds

25

that the Speedy Trial Act was inapplicable in this instance because Appellant “was

26

never arrested or summoned.” (Appellant’s Opening Br. at 24.)

27

The Speedy Trial Act requires that “a defendant be brought to trial within

28

seventy days from the filing date . . . of the information or indictment, or from the date
8.

App. 84a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 9 of 18 Page ID #:1099

1

the defendant has appeared before a judicial officer of the court in which such charge

2

is pending, whichever date last occurs.” Medina, 524 F.3d at 978 (internal quotation

3

marks omitted). However, the Ninth Circuit has explicitly stated that “[a] brief

4

detention and the issuance of a [V]iolation [N]otice do not trigger the Speedy Trial

5

Act[,]” and therefore, a Violation Notice without a brief detention cannot either.

6

United States v. Boyd, 214 F.3d 1052, 1054 (9th Cir. 2000) (holding that an issuance

7

of a Violation Notice cannot be considered a “complaint” issued at the time of

8

“arrest,” and thus, that the government did not violate the Speedy Trial Act) (internal

9

quotation marks omitted); accord United States v. Candelaria, 214 F.3d 1052, 1055

10

(9th Cir. 2000). In Boyd, the Ninth Circuit looked to their prior holding in

11

Candelaria, the words of the statute, and the legislative history of the Speedy Trial

12

Act to determine whether or not the Act applies to a Violation Notice and brief

13

detention. Boyd, 214 F.3d at 1055 (“We ruled [in Candalaria] that the Act had not

14

been violated because §3161(b)’s 30-day limitation applies only to persons who are

15

arrested and charged or otherwise restrained.”). Additionally, it referenced the Sixth

16

Circuit’s decision in United States v. Graef, which stated the Speedy Trial Act

17

provided no remedy for the Defendant who was put in a cell overnight and released on

18

a Violation Notice. United States v. Graef, 31 F.3d 362, 364 (6th Cir. 1994) (“[T]he

19

arrest ‘trigger’ for § 3161(b) applies only to arrests made either on a complaint or

20

which were immediately followed by a complaint.”) In Graef, the court ultimately

21

held “because no complaint was ever filed against [defendant], there could be no

22

arrest for the purposes of beginning the 30-day pre-indictment clock.” Id. (internal

23

quotation marks omitted).

24

In Boyd, the Ninth Circuit agreed “with the Sixth Circuit that a complaint must

25

be issued at the time of arrest in order to trigger the 30-day limitation.” Boyd, 214

26

F.3d at 1056. Importantly, the court “specifically [held] that a [V]iolation [N]otice

27

will not be equated with a complaint to begin the Speedy Trial Act’s clock.” Id.

28

(alterations in original); accord United States v. Mills, 964 F.2d 1186, 1189 (D.C. Cir.
9.

App. 85a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 10 of 18 Page ID #:1100

1

1992) (“The remedial provision of the Speedy Trial Act also suggests that the Act is

2

triggered only by arrests that are accompanied by the filing of a federal complaint

3

against the defendant.”). Lastly, the Ninth Circuit stated that if a Violation Notice

4

started the Act’s “time clock[, that] would create a substantial and undue burden on

5

the government.” Boyd, 214 F.3d at 1057.

6

On August 11, 2015, SA Burke issued Appellant a Class A misdemeanor

7

Violation Notice. (Excerpts of R. Vol. 1, Violation Notice at 6.) Appellant made her

8

first court appearance on September 16, 2015. (Excerpts of R. Vol. 1, Transcript of

9

Violation Proceeding at 21-31.) The government filed an Information on February 1,

10

2016, and on February 9, 2016, Appellant was arraigned. (Excerpts of R. Vol. 1,

11

Information at 71-72; Government’s Answering Brief at 15.) The government then

12

filed a “superseding Information” on March 29, 2016. (Excerpts. Of R. Vol. 1,

13

Superseding Information at 198-199.) On April 5, 2016, Appellant was both

14

arraigned on the “superseding Information” (Rep.’s Tr. of Ct. Trial at 5-9) and tried

15

for her charge. (Rep.’s Tr. of Ct. Trial at 1-197.) At no point was Appellant arrested,

16

detained or summoned. The Ninth Circuit has unambiguously held that the Speedy

17

Trial Act does not apply to individuals in Appellant’s situation. Boyd, 214 F.3d at

18

1056; Candelaria, 214 F.3d at 1055.

19

B. Improper Venue

20

Next, Appellant challenges her conviction on the grounds that the government

21

failed to establish the Central District of California was the proper venue.

22

(Appellant’s Opening Br. at 42.) As Appellant correctly points out, the government

23

“bears the burden of proving the requisite connection to a district by a preponderance

24

of the evidence.” United States v. Angotti, 105 F.3d 539, 541 (9th Cir. 1997).

25

Appellant did not raise an objection to venue until after the government rested

26

its case, at which point Appellant made a Rule 29 motion, specifically on the grounds

27

that the government failed to prove proper venue. (Rep.’s Tr. of Ct. Trial at 99.) The

28

court denied her motion finding that “18 United States Code, Section 3237, states that,
10.

App. 86a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 11 of 18 Page ID #:1101

1

’[a]ny offense that involves transportation in interstate or foreign commerce is a

2

continuing offense and may be prosecuted in any district from, through or into which

3

such commerce moves.’” (Id. at 99-100.) In light of this statute, the court found it

4

sufficient that the government had established the alleged offense took place “on a

5

commercial airline flight in interstate commerce,” because “to establish venue, the

6

government only needs to prove that the crime took place on a form of transportation

7

in interstate commerce.” (Id. at 100.)

8
9

Once Appellant rested her case, she renewed the Rule 29 motion, which the
court again denied, holding that, in looking at the “evidence in the light most

10

favorable to the prosecution, as the [c]ourt must do in ruling on a Rule 29 motion, the

11

Court finds that the government has met its burden of proving the elements of the

12

offense beyond a reasonable doubt.” (Id. at 176-177.) Again, the court stated “the

13

government only needs to show to establish venue that the crime took place on a form

14

of transportation in interstate commerce.” (Id. at 175.)

15

Lastly, Appellant filed a post-trial Rule 29 motion for judgment of acquittal on

16

the basis of improper venue. (Excerpts of R. Vol. 2, April 20, 2016 Motion for

17

Judgment of Acquittal at 209-243.) Among other things, Appellant argued venue did

18

not appear defective on the face of the Violation Notice. (Id. at 212.) The court

19

denied this motion as meritless, for the same reasons it was previously denied, and as

20

untimely. (Excerpts of R. Vol. 2, Order for Appellant’s Motion for Judgment of

21

Acquittal at 264-276.)

22

On appeal, Appellant claims that because the government failed to prove “any

23

part of the alleged assault in this case —which consisted of a single discrete act —

24

occurred after the plane entered the airspace of the Central District, venue does not

25

exist [there].” (Appellant’s Opening Br. at 45.) Namely, Appellant argues the

26

government failed to offer testimony about which district the plane was flying over

27

when the incident in question occurred, or what time it was. (Id. at 43.) Appellant

28

also alleges the magistrate judge wrongfully concluded that venue was proper under
11.

App. 87a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 12 of 18 Page ID #:1102

1

18 U.S.C. § 3237(a) for airplane crimes on any district through which the plane

2

travels, regardless of where the crime is actually committed. (Id. at 44.)

3

According to the Ninth Circuit, “[i]f a defect in venue is clear on the face of the

4

[information], a defendant’s objection must be raised before the government has

5

completed its case.” United States v. Ruelas-Arreguin, 219 F.3d 1056, 1060 (9th Cir.

6

2000); see Hanson v. United States¸ 285 F.2d 27, 28 (9th Cir. 1960). On the other

7

hand, “[i]f the venue defect is not evident on the face of the [information], a defendant

8

may challenge venue in a motion for acquittal at the close of the government’s case.”

9

Ruelas-Arreguin, 219 F.3d at 1060.

10

When examining issues of improper venue, the Court “must initially identify

11

the conduct constituting the offense . . . and then discern the location of the

12

commission of the criminal acts.” United States v. Ruelas-Arreguin, 219 F.3d 1056,

13

1061 (9th Cir. 2000) (quoting United States v. Rodriguez-Moreno, 526 U.S. 275, 279

14

(1999)). Although in continuing crimes, “venue may lie in any district in which the

15

continuing conduct has occurred,” Ruelas- Arreguin, 219 F.3d at 1061, “[v]enue is not

16

proper when all that occurred in the charging district was a circumstance element . . .

17

[that] occurred after the fact of an offense[.]” United States v. Stinson, 647 F.3d 1196,

18

1204 (9th Cir. 2011) (internal quotation marks omitted).

19

However, 18 U.S.C. §§ 3237(a) and 3238 cover offenses begun in one district

20

and completed in another and offenses not committed in any district, respectively. As

21

the magistrate judge in Appellant’s trial pointed out, § 3237(a) provides in pertinent

22

part:

23

[A]ny offense against the United States begun in one district and

24

completed in another, or committed in more than one district, may be

25

inquired of and prosecuted in any district in which such offense was

26

begun, continued, or completed.

27

Any offense involving the use of the mails, transportation in

28

interstate or foreign commerce, or the importation of an object or person
12.

App. 88a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 13 of 18 Page ID #:1103

1

into the United States is a continuing offense and, except as otherwise

2

expressly provided by enactment of Congress, may be inquired of and

3

prosecuted in any district from, through, or into which such commerce,

4

mail matter, or imported object or person moves.

5

18 U.S.C. § 3237(a).

6
7

Additionally, § 3238 provides in pertinent part:

8

The trial of all offenses begun or committed upon the high seas, or

9

elsewhere out of the jurisdiction of any particular State or district, shall

10

be in the district in which the offender, or any one of two or more joint

11

offenders, is arrested or is first brought

12

18 U.S.C. § 3238.

13
14

The Ninth Circuit has specifically applied 18 U.S.C. § 3238 to matters that

15

occur outside a particular district. In United States v. Walczak, the defendant was

16

charged with putting false information on a customs form in Canada before boarding a

17

flight that ultimately landed in the Western District of Washington. United States v.

18

Walczak, 783 F.2d 852, 855 (9th Cir. 1986). The Ninth Circuit held that § 3238

19

enabled the government to prosecute the defendant in the district “where the offender

20

* * * [was] arrested or first brought.” (Id.) (citing 18 U.S.C. § 3238).

21

Other circuit courts have referenced 18 U.S.C. §§ 3237 and 3238 in tandem

22

when adjudicating cases where defendants are prosecuted for crimes committed in the

23

course of interstate transportation. See, e.g., Haddad v. United States, 349 F.2d 511,

24

515 (9th Cir. 1965); United States v. Miller, 808 F.3d 607, 612 (2d Cir. 2015); United

25

States v. Pendleton, 658 F.3d 299, 302-05 (3d Cir. 2011); United States v. Zabeneh,

26

837 F.3d 1249, 1255-57 (5th Cir. 1988); United States v. Hassanshahi, 185 F. Supp.

27

3d 55, 56 (Dist. Ct. D.C. 2016). More specifically, circuit courts have relied on 18

28

U.S.C. § 3237 to hold that, with respect to charging a defendant with an offense
13.

App. 89a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 14 of 18 Page ID #:1104

1

occurring in the course a flight, venue is proper in the district in which the aircraft

2

landed. See, e.g., United States v. Cope, 676 F.3d 1219, 1225 (10th Cir. 2012) (“Mr.

3

Cope was under the influence of alcohol during the flight. Because he was operating a

4

common carrier in interstate commerce, it is immaterial whether he was under the

5

influence of alcohol [where the plane landed].”) (internal quotation marks omitted);

6

United States v. Breitweiser, 357 F.3d 1249, 1253 (11th Cir. 2004) (“To establish

7

venue, the government need only show that the crime took place on a form of

8

transportation in interstates commerce[;] . . . [t]he government met its burden by

9

showing that Breitweiser committed the crimes on an airplane that ultimately landed

10

in Georgia.”) (internal quotation marks omitted).

11

To establish a charge for simple assault in violation of 18 U.S.C. § 11385, the

12

government had to prove Appellant one “committed a simple assault, and, two, that

13

the assault took place within the special aircraft jurisdiction of the United States.”

14

(Rep.’s Tr. of Ct. Trial at 191.) Therefore, the essential conduct constituting the

15

offense in question was the contact Appellant made with Wolff, and the location of

16

the contact was Flight 2231, while it was en route to Los Angeles International

17

Airport (“LAX”). (Excerpts of R. Vol. 1, Statement of Probable Cause at 7-20.)

18

Regardless of whether the simple assault in question falls under 18 U.S.C. §

19

3237(a) insofar as the assault can be characterized as an offense that is “committed in

20

more than one district,” or 18 U.S.C. § 3238 insofar as the assault can be characterized

21

as one that began or was committed “out of the jurisdiction of any particular State or

22

district,” the outcome is the same. Circuit courts have cited to both sections of the

23

statute when holding that a defendant was properly prosecuted in the district in which

24

the person “moved,” surrendered, first arrived subsequent to the offense, or was

25

arrested subsequent to the offense. In light of the foregoing, the Court finds that under

26

either 18 U.S.C. § 3237(a) or § 3238, venue was proper in the Central District of

27

California because that is the district in which Flight 2321 landed.

28
14.

App. 90a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 15 of 18 Page ID #:1105

1

C. Improper Burden-Shifting

2

Lastly, Appellant argues that the magistrate judge committed legal error by

3

requiring Appellant to establish, beyond a reasonable doubt, that she had acted in

4

reasonable self-defense, rather than requiring the government to establish, beyond a

5

reasonable doubt, that she did not. (Appellant’s Opening Br. at 1.)

6

Appellant relies on the statements the magistrate judge made when returning the

7

verdict to support her argument. Upon returning the verdict, the magistrate judge

8

explained:

9

With respect to whether the assault was committed in self-defense, the

10

[c]ourt finds based on the testimony presented that the [Appellant] used

11

more force than what was reasonably necessary to defend herself against

12

what she perceived to be a threat to her physical safety, and in that

13

regard, the [c]ourt finds that the [Appellant’s] testimony and her

14

statements to the special agent and to the flight attendants contained

15

inconsistencies regarding her perceived threat from the victim, and also

16

the [c]ourt found that the testimony of the [Appellant’s] witnesses were

17

themselves inconsistent and failed to establish beyond a reasonable doubt

18

that the [Appellant] was in a position where she felt threatened . . . the

19

[c]ourt finds the explanation that the defendant gave for why she didn’t

20

stick around and provide the apology, as she had agreed to do, the

21

explanation she gave here in court, which was inconsistent with what she

22

had told the FBI special agent, and then the – and then the testimony of

23

Mr. Moffie as to why he surmised that it was in the [Appellant’s] best

24

interest to not wait at the jetway, all of those explanations the [c]ourt

25

finds implausible and does not credit them, and so that is the judgment of

26

the [c]ourt.

27

(Rep.’s Tr. of Ct. Trial at 191-194.)

28
15.

App. 91a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 16 of 18 Page ID #:1106

1

Specifically, Appellant alleges, in rendering the verdict, the magistrate judge

2

“rejected” Appellant’s argument that she acted in reasonable self-defense because of

3

the inconsistencies the court found in her testimony and the testimony of some of

4

Appellant’s witnesses. (Appellant’s Opening Br. at 55.) Appellant believes the

5

magistrate judge’s statement that “the testimony of the [Appellant’s] witnesses were

6

themselves inconsistent and failed to establish beyond a reasonable doubt that the

7

[Appellant] was in a position where she felt threatened” (Rep.’s Tr. of Ct. Trial at 192-

8

193), clearly shows she improperly shifted the burden of proof onto Appellant.

9

(Appellant’s Opening Br. at 55.)

10

In determining whether magistrate judges have improperly shifted the burden of

11

proof onto a defendant, the Ninth Circuit has stated that the judge’s words “need not

12

be read so literally.” United States v. Coutchavlis, 260 F.3d 1149, 1156 (9th Circuit

13

2001). “That the magistrate judge did not orally explain his reasoning with the

14

precision that might be expected from a written decision is not sufficient reason to

15

conclude that he placed the burden on the defendant[.]” Coutchavlis, 260 F.3d at

16

1157. Rather than looking at one particular statement and the purported inaccuracies

17

therein, the Ninth Circuit has read the judge’s words “in the context of the entire trial”

18

to determine whether a judge’s words in a particular instance are indicative of a

19

misstatement or an improper shift of the burden of proof. Id.

20

Immediately before trial, the magistrate judge conducted an arraignment on the

21

Superseding Information. (Id. at 5.) There the court explicitly stated that “[i]t is the

22

burden of the government to prove [Appellant’s] guilt beyond a reasonable doubt[,]”

23

and that “[i]f the government fails to do that, [Appellant] will be acquitted of the

24

charge.” (Id. at 7.) Additionally, in denying Appellant’s renewed Rule 29 motion, the

25

magistrate judge stated that in looking at the “evidence in the light most favorable to

26

the prosecution, as the [c]ourt must do in ruling on a Rule 29 motion, the Court finds

27

that the government has met its burden of proving the elements of the offense beyond

28

a reasonable doubt.” (Id. at 176-177.) Lastly, in its closing remarks, the government
16.

App. 92a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 17 of 18 Page ID #:1107

1

expressly argued it “has proven beyond a reasonable doubt that the [Appellant] has

2

committed a simple assault and that the amount of force used to deflect the hand that

3

she saw that was on the headrest was not reasonable[.]” (Rep.’s Tr. of Ct. Trial at

4

191.) The court subsequently took a fifteen-minute recess and returned with its

5

judgment, provided in pertinent part above. (Id.)

6

Facially, it may appear that the magistrate judge had improperly shifted the

7

burden onto the Appellant when she stated the testimony offered by Appellant and her

8

witnesses “failed to establish beyond a reasonable doubt that the [Appellant] was in a

9

position where she felt threatened.” (Rep.’s Tr. of Ct. Trial at 192-193.) However,

10

when put in the context of the entire trial, the Court finds it more reflective of a

11

misstatement than improper burden-shifting. All things considered, it is reasonable

12

that the magistrate judge found, in light of the testimony presented, the government

13

had met its burden in proving beyond a reasonable doubt that Appellant acted with

14

unreasonable force. It is also reasonable to construe the verdict as concluding that the

15

court found the government met its burden of proving, beyond a reasonable doubt,

16

that Appellant did not act in reasonable self-defense, and the testimony of Appellant

17

and her witnesses failed to prove otherwise. Other than that particular excerpt,

18

Appellant does not provide any other examples from the record to demonstrate

19

improper burden-shifting on the part of the magistrate judge, and the Court does not

20

find any other parts of the trial transcript that even remotely show the magistrate judge

21

improperly shifted the burden onto Appellant. Thus, the Court finds the magistrate

22

judge properly understood the elements of the offense and that the government had the

23

burden of proof. Therefore, Appellant’s appeal on the ground that the magistrate

24

judge improperly shifted the burden of proof fails.

25
26
27
28
17.

App. 93a

Case 2:16-cr-00598-AB Document 30 Filed 09/08/17 Page 18 of 18 Page ID #:1108

1
2
3

IV.

CONCLUSION
For the foregoing reasons, the Court hereby AFFIRMS the magistrate judge’s

order, which found Appellant guilty of simple assault on an aircraft.

4
5

IT IS SO ORDERED.

6
7
8

Dated: September 8, 2017

_______________________________________
HONORABLE ANDRÉ BIROTTE JR.
UNITED STATES DISTRICT COURT JUDGE

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
18.

App. 94a

Appendix E

App. 95a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 1 of 13 Page ID #:220

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

)
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA,
11

Plaintiff,
12

v.

13

MONIQUE A. LOZOYA,

14

Defendant.

15

No. CR 16-0043-AS
ORDER
DENYING
DEFENDANT’S
MOTION
FOR
JUDGMENT
OF
ACQUITTAL [DKT. NO. 32]

16

INTRODUCTION

17
18
19

On

March

29,

2016,

Defendant

was

charged

in

a

Superseding

20

Information with one count of simple assault aboard an aircraft in

21

violation of 49 U.S.C. § 46506 and 18 U.S.C. § 113(a)(5), a Class B

22

Misdemeanor.

23

on April 5, 2016, Defendant was convicted of the sole count charged

24

in the Superseding Information.

(Docket Entry No. 21).

Following a one-day bench trial

(Docket Entry No. 26).

25
26

Defendant now moves for the entry of a judgment of acquittal

27

pursuant

to

Federal

Rule

of

Criminal

Procedure

29

(“Rule

29”),

28

arguing that the Government failed to prove venue (“Motion”)(Docket
1

App. 96a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 2 of 13 Page ID #:221

1

Entry No. 32).

The Government has filed an Opposition (“Opposition”)

2

(Docket Entry No. 33), and the Court has taken the Motion under

3

submission without oral argument (Docket Entry No. 34).

4

reasons discussed below, Defendant’s Motion is DENIED as untimely and

5

meritless.

For the

6

PROCEDURAL BACKGROUND

7
8
9

On

February

1,

2016,

the

Government

filed

an

Information

10

charging Defendant with one count of assault by striking aboard an

11

aircraft

12

§ 113(a)(4).1

in

violation

of

49

U.S.C.

(Docket Entry No. 1).

§

46506

and

18

U.S.C.

The Information read:

13
14

On or about July 19, 2015, in Los Angeles County, within

15

the

16

[Defendant], while on a civil aircraft within the special

17

aircraft jurisdiction of the United States, namely, Delta

18

Airlines flight 2321, en route to Los Angeles International

19

Airport, assaulted passenger O.W. by intentionally striking

20

him.

Central

District

of

California

and

elsewhere,

21
22

(Id.).

23
24
25

Following
Motion,

the

a

hearing

Government

on
filed

issues
a

not

relevant

Superseding

to

the

Information

instant
charging

26
27
28

1

Prior to the filing of the Information, Defendant had been
arraigned on a violation for the same conduct. (See Docket Entry No.
12 at Mem. at 2).
2

App. 97a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 3 of 13 Page ID #:222

1

Defendant with one count of simple assault aboard an aircraft in

2

violation of 49 U.S.C. § 46506 and 18 U.S.C. § 113(a)(5).

3

The Superseding Information read:

(Id.).

4
5

On or about July 19, 2015, in Los Angeles County, within

6

the

7

[Defendant], while on a civil aircraft within the special

8

aircraft jurisdiction of the United States, namely, Delta

9

Airlines flight 2321, en route to Los Angeles International

Central

District

of

California

and

elsewhere,

Airport, assaulted passenger O.W.

10
11
12

(Id.).

13
14

A bench trial was held before the undersigned Magistrate Judge

15

on April 5, 2016, and Defendant was convicted of simple assault

16

aboard

17

(Docket Entry No. 26).

18

Rule 29, and the Court denied Defendant’s motions without prejudice

19

to the filing of a written Rule 29 motion addressing the Government’s

20

alleged failure to prove venue.2

21

precluded Defendant from presenting testimony that the assault had

22

not

23

California, but invited Defendant to submit a declaration to that

an

aircraft

occurred

within

as

charged

in

the

Supersediung

Information.

Defendant made motions for acquittal under

the

(Id.).

airspace

of

During trial, the Court

the

Central

District

of

24
25
26
27
28

2

In addition to the venue issues upon which the Court requested
briefing, the instant Motion seeks acquittal “as to all elements,”
primarily “to ensure all issues are adequately preserved.”
(Motion
at 1). To the extent that the instant Motion re-asserts Defendant’s
arguments for acquittal on grounds other than improper venue, it is
DENIED.
3

App. 98a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 4 of 13 Page ID #:223

1

effect in support of any motion challenging venue.

2

n.2, 12, 13; Exhs. A-D).

(See Motion at 2

3
4

On April 20, 2016, Defendant filed the instant Motion, which is

5

now fully briefed and under submission before the Court.

6

Entry Nos. 32-34).

(Docket

7

THE PARTIES’ ARGUMENTS

8
9
10

Defendant contends that the Government failed to prove that the

11

Central

District

12

prosecution.

First,

Defendant

claims

13

required,

failed,

to

prove

that

14

airspace

District

of

15

occurred.

16

alleges that the assault must have taken place between 55 and 70

17

minutes before landing because the lead flight attendant testified

18

that: (1) immediately after the assault occurred, he spent at least

19

30 to 45 minutes discussing the assault with Defendant, the victim,

20

and the victim’s wife; (2) after the discussion was complete, he and

21

other flight attendants were told to prepare for landing; and (3)

22

flight attendants are told to prepare for landing 25 minutes prior to

23

landing.

24

exhibits

25

California-Nevada

26

landing.3

and
of

the

of

California

Central

(Motion at 2-3).

(Motion
tending

at
to

2).
show

border

is

a

proper
that

the

venue

the

flight

California

for

this

government
was

when

within
the

was
the

assault

In support of this claim, Defendant

Defendant
that

the

until

attaches
flight

a

did

approximately

33

declaration

and

not

the

cross

minutes

before

(Id. at 12-13 & Exh. C).

27
3

28

The flight travelled from Minneapolis,
Angeles, California. (Motion at 2 & Exh. A).

Minnesota,

to

4

App. 99a

Los

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 5 of 13 Page ID #:224

1
2

Second, Defendant claims that the venue provision in 18 U.S.C.

3

§ 3238, “Offenses not committed in any district,”4 is not applicable

4

because the flight never left the airspace of the United States and

5

the assault therefore occurred in some district.

6

Third, Defendant contends that the venue provisions in 18 U.S.C.

7

§ 3237(a),

8

another,”5 do not apply because the “conduct” elements of the assault

9

did not occur in the Central District of California (because the

10

flight was not in the airspace of the Central District of California)

11

and

12

commerce.

13

Motion is timely because the defect in venue was not apparent on the

14

face of the Superseding Information.

do

“Offenses

not

begun

themselves

in

pertain

(Motion at 6-8).

one

to

district

(Motion at 5-6).

and

transportation

completed

in

in

interstate

Finally, Defendant asserts that the

(Motion at 1 & n.1).

15
16

In its opposition, the Government contends that the Motion is

17

untimely because the Government’s venue allegation, i.e., that the

18
19
20
21
22
23
24
25
26
27
28

4

18 U.S.C. § 3238 reads: “The trial of all offenses begun or
committed upon the high seas, or elsewhere out of the jurisdiction of
any particular State or district, shall be in the district in which
the offender . . . is arrested or is first brought . . . .”
5

18 U.S.C. § 3237(a) is divided into two paragraphs. The first
provides: “[A]ny offense against the United States begun in one
district and completed in another, or committed in more than one
district, may be inquired of and prosecuted in any district in which
such offense was begun, continued, or completed.”
The second
provides: “Any offense involving the use of the mails, transportation
in interstate or foreign commerce, or the importation of an object or
person into the United States is a continuing offense and . . . may
be inquired of and prosecuted in any district from, through, or into
which such commerce, mail matter, or imported object or person
moves.”
5

App. 100a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 6 of 13 Page ID #:225

1

flight

was

“en

route

to

Los

Angeles

International

Airport,”

was

2

stated in the Information and Superseding Information.

3

at 3).

4

U.S.C. § 3237(a) because the assault occurred aboard an aircraft that

5

was

6

“involv[ed] . . . transportation in interstate or foreign commerce”

7

and may therefore be “inquired of and prosecuted in any district

8

from, through, or into which such commerce . . . moves.”

9

at 5-6).

(Opposition

Next, the Government asserts that venue is proper under 18

traveling

in

interstate

commerce

such

that

the

offense

(Opposition

The Government also argues that venue is proper under 18

10

U.S.C.

§ 3238

11

particular

12

occurs.

because

place

it

where

is

an

“nearly

offense

impossible”

occurring

in

to
the

pinpoint
“high

the

skies”

(Opposition at 8-9).

13

STANDARD OF REVIEW

14
15

Under Federal Rule of Criminal Procedure 29, a defendant may

16
17

move

for

a

judgment

of

acquittal

of

any

offense

for

which

the

18

evidence is insufficient to sustain a conviction.

19

29.

20

the light most favorable to the prosecution, any rational trier of

21

fact could have found the essential elements of the crime beyond a

22

reasonable doubt.

23

1121 (9th Cir. 2013) (citing Jackson v. Virginia, 443 U.S. 307, 319

24

(1979)).

25

//

26

//

27

//

Fed. R. Crim. P.

A judgment of acquittal is improper if, viewing the evidence in

See United States v. Ramos-Atondo, 732 F.3d 1113,

28
6

App. 101a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 7 of 13 Page ID #:226

DISCUSSION

1
2

For the following reasons, the Court DENIES Defendant’s Motion

3
4

as untimely and without merit.

5
6

A.

Defendant’s Motion Is Untimely

7
8

The Sixth Amendment guarantees criminal defendants the right to

9

be tried in the state and district in which the crime was committed.

10

See U.S. CONST. amend. VI; see also Fed. R. Crim. P. 18 (stating

11

that,

12

government must prosecute an offense in a district where the offense

13

was committed”).

14

of the charging instrument, a defendant’s objection to venue must be

15

raised before the Government has completed its case, or the objection

16

will be waived.

17

Cir. 2002).

except

as

otherwise

permitted

by

rule

or

statute,

“the

However, if a defect in venue is clear on the face

See United States v. Johnson, 297 F.3d 845, 861 (9th

18
19

Here, Defendant claims that alleged defects in venue were not

20

apparent

on

the

21

charged Defendant with committing assault “in Los Angeles County,

22

within the Central District of California and elsewhere.”

23

1 n.1).

The Government claims that alleged defects in venue were

24

apparent

on

25

Information, which stated that Defendant’s conduct occurred “while on

26

a civil aircraft within the special aircraft jurisdiction of the

27

United States, namely, Delta Airlines flight 2321, en route to Los

28

Angeles International Airport.”

the

face

face

of

of

the

Superseding

both

the

Information

Information

and

because

it

(Motion at

Superseding

(See Opposition at 2-3).
7

App. 102a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 8 of 13 Page ID #:227

The Court finds that the alleged defects in venue were clear on

1
2

the face of the charging instrument.

3

both

4

aircraft was within the special aircraft jurisdiction of the United

5

States, identified the flight, and stated that the aircraft was “en

6

route to Los Angeles International Airport.”

7

21).

8

Therefore, Defendant was on notice that the Government’s theory of

9

venue

the

Information

and

As the Government points out,

Superseding

Information

stated

that

the

(Docket Entry Nos. 1,

There were no other specific allegations addressing venue.

relied

upon

the

flight’s

destination,

rather

than

any

10

allegation that the assault occurred in the airspace over the Central

11

District of California.6

12
13

The fact that the Information and Superseding Information also

14

stated

that

15

District

16

Johnson, the Ninth Circuit found waiver where an indictment stated

17

that acts supporting various counts of conviction occurred “in the

18

District of Arizona and elsewhere.”

19

Circuit ruled that this language had to be read “in conjunction with”

20

the rest of the indictment, which contained a grid making it clear

21

that certain counts did not involve any activity within the District

22

of Arizona.

23

occurred “within the Central District of California and elsewhere,”

of

the

Defendant’s

California

Id.

and

actions

occurred

elsewhere”

is

“within

not

the

Central

dispositive.

297 F.3d at 861.

In

The Ninth

Here, the allegation that Plaintiff’s actions

24
6

25
26
27
28

The fact that Defendant was prepared to have an investigator
testify regarding venue during trial also suggests that Defendant was
actually aware of a potential defect in venue prior to the
presentation of the Government’s case-in-chief. See United States v.
Price, 447 F.2d 23, 28 (2d Cir. 1971) (waiver of defect in venue was
“manifest” where defendant had “clear notice and actual knowledge of
the presumed defect” but did not move to dismiss the indictment).
8

App. 103a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 9 of 13 Page ID #:228

1

when read in concert with the only venue-related statement in the

2

Information

3

Government

4

airspace of the Central District of California.

5

allegation that an instantaneous assault occurred both “within the

6

Central District of California” and “elsewhere” might reasonably have

7

put

8

example, the “continuing offense” theory of venue that is the partial

9

subject of the instant Motion.

10

and
did

Superseding
not

Defendant

on

allege

notice

Information,

that

that

the

the

make

assault

clear

actually

Government

that

the

occurred

in

If anything, the

would

rely

on,

for

(See Motion at 6-7; Opposition at 5-

6).

11
12

Because the defects in venue alleged in the instant Motion were

13

clear on the face of the charging instrument, Defendant’s challenge

14

to venue are waived, and the Court denies the Motion as untimely.

15
16

B.

Defendant’s Motion Is Meritless

17
18

Although

the

untimeliness

of

the

Motion

provides

sufficient

19

grounds for denying it, the Court also concludes that the Motion is

20

without merit.

21
22

The

Supreme

Court

has

formulated

guidelines

for

determining

23

criminal venue.

In the absence of a specific venue provision in the

24

charging statute, the “locus delicti must be determined from the

25

nature of the crime alleged and the location of the act or acts

26

constituting

27

(1946).

28

conduct constituting the offense (the nature of the crime) and then

it.”

United

States

v.

Anderson,

328

U.S.

699,

703

In undertaking this inquiry, a court must “identify the

9

App. 104a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 10 of 13 Page ID #:229

1

discern the location of the commission of the criminal acts.”

2

States v. Rodriguez-Moreno, 526 U.S. 275, 279 (1999).

3

focus of this test is on the conduct comprising the offense, the

4

Supreme Court has rejected the so-called ‘verb test’-the notion that

5

action verbs reflected in the text of the statute should be ‘the sole

6

consideration

7

offense.’” United States v. Salinas, 373 F.3d 161, 164 (1st Cir.

8

2004)

9

inquiring court should ‘peer at the conduct elements comprising the

in

(citing

through

identifying

the

Rodriguez-Moreno,

wider-angled

526

U.S.

at

constitutes

280).

(citing Rodriguez-Moreno at 280 & n. 4); see also United States v.

12

Muhammad, 502 F.3d 646, 652 (7th Cir. 2007) (nature of crime and

13

location of act to be used as a “guide” to determine venue, not a

14

“rigid

15

contacts rule that takes into account a number of factors - the site

16

of the defendant’s acts, the elements and nature of the crime, the

17

locus and effect of the criminal conduct, and the suitability of each

18

district for suitable fact-finding.”).

is

“best

373

described

as

F.3d

a

at

an

11

standard

Salinas,

“Rather,

an

crime

the

lens.’”

that

“Although the

10

test”;

a

conduct

United

164

substantial

19
20

Here, the parties appear to agree on the general elements of

21

simple assault committed within the special aircraft jurisdiction of

22

the United States.

23

Motion at 4-5; Opposition at 5).

24

to dispute that the assault may not have occurred in California’s

25

airspace.

26

elements of the crime and its location, either 18 U.S.C. § 3237(a) or

27

18 U.S.C. § 3238 gives rise to venue in the Central District of

28

California.

The

18 U.S.C. § 113(a)(5); 49 U.S.C. § 46506(1); (see

parties

(Motion

at

The Government also does not appear

dispute

5-8;

whether,

Opposition

at

after

2,

considering

4-12).

the

Defendant

10

App. 105a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 11 of 13 Page ID #:230

1

contends that § 3237(a) does not apply because the “conduct” elements

2

of the assault did not occur in the Central District of California

3

and

4

commerce.

5

applies

6

commerce and therefore “involves” interstate commerce such that it

7

may be prosecuted in “any district from, through, or into which such

8

commerce . . . moves.”

do

not

themselves

pertain

(Motion at 7-8).
because

Defendant’s

to

transportation

in

interstate

The Government argues that § 3237(a)
flight

was

traveling

in

interstate

(See Opposition at 5-6).

9
10

The Court concludes that venue is proper under § 3237(a).

11

the Government points out, United States v. Breitweiser, 357 F.3d

12

1249 (11th Cir. 2004), is instructive.

13

Breitweiser, the defendant was convicted of abusive sexual contact

14

with a minor and simple assault of a minor in Atlanta, within the

15

Northern District of Georgia.

16

actions took place during a flight from Houston to Atlanta, and the

17

defendant challenged a finding that venue was proper in the Northern

18

District of Georgia.

19

that venue was appropriate under § 3237(a) because the Government had

20

shown “that the crime took place on a form of transportation in

21

interstate commerce” that “ultimately landed in Georgia.”

22

1253.

23

required to show that the defendant touched the victim while in the

24

Northern District of Georgia’s airspace, and observed that it would

25

be “difficult if not impossible” to prove where the plane was when

26

the defendant committed his crimes.

27

States v. Cope, 676 F.3d 1219, 1224-25 (10th Cir. 2012) (defendant

28

operated a commercial airplane under the influence of alcohol during

The

Eleventh

357 F.3d at 1251.

Id. at 1251-53.

Circuit

(Opposition at 6-7).

found

As

In

The defendant’s

The Eleventh Circuit found

that

the

Government

Id. at
was

not

Id. at 1253-54; see also United

11

App. 106a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 12 of 13 Page ID #:231

1

a

flight

from

2

§ 3237(a) was proper in “any district through which [the defendant]

3

traveled

4

defendant was actually under the influence of alcohol in district of

5

prosecution).

on

Austin,

the

Texas

flight,”

to

and

Denver,

it

was

Colorado;

“immaterial”

venue

under

whether

the

6
7

In Breitweiser, as here, the defendant’s criminal conduct may

8

not have occurred in the prosecuting district and did not necessarily

9

involve interstate commerce.
broad

(See Motion at 7-8).

language

and

the

difficulties

Nevertheless,

10

§ 3237(a)’s

inherent

in

11

pinpointing the exact location of a crime occurring on an aircraft

12

traveling in interstate commerce gave rise to venue in the arriving

13

district.

The same conclusion is warranted here.

14
15

Defendant’s reliance on the “essential-conduct-elements test” in

16

Rodriguez-Moreno, 526 U.S. 275, 276 (1999), and United States v.

17

Stinson, 647 F.3d 1196 (9th Cir. 2011), (Motion at 8), is unavailing.

18

As

19

purported

20

transportation in interstate or foreign commerce” such that it may

21

“be inquired of and prosecuted in any district from, through, or into

22

which such commerce . . . moves.”

23

also do not address the specific practical challenges associated with

24

prosecuting crimes occurring on an aircraft traveling in interstate

the

Government
to

notes,

analyze

neither

venue

when

Rodriguez-Moreno
a

crime

nor

Stinson7

“involv[es]

. . .

Unlike Breitweiser, these cases

25
7

26
27
28

Rodriguez-Moreno held that venue in a prosecution for using or carrying
a firearm during and in relation to a crime of violence in violation of 18 U.S.C. §
924(c) is proper in any district where the “continuing crime of violence” is
committed. Id. at 281-82. Stinson held the commission of a violent crime in aid of
racketeering was a continuing offense for which venue was proper in any district in
which any element of the offense occurred or continued. Id. at 1204.
12

App. 107a

Case 2:16-cr-00043-AS Document 36 Filed 07/01/16 Page 13 of 13 Page ID #:232

1

commerce.

See Salinas, 373 F.3d at 164; Muhammad, 502 F.3d at 652

2

(venue test to be interpreted flexibly).

3

demonstrated that the conduct elements of an offense must involve

4

interstate commerce in order to give rise to venue under § 3237(a),

5

and Defendant’s reliance on United States v. Morgan, 393 F.3d 192

6

(D.C. Cir. 2004), for this proposition is unjustified.

7

F.3d at 200 (ruling that receipt of stolen property was not offense

8

“involving”

9

transportation was not an element of the offense; also observing,

10

however, that courts have applied § 3237(a) where there was otherwise

11

“a

12

transportation” and citing Breitweiser).

tight

transportation

connection

in

interstate

between

the

Defendant also has not

commerce

offense

and

Morgan, 393

because

the

such

interstate

13
14

Therefore, the Court finds that venue exists under § 3237(a) and

15

declines

16

§ 3238.

to

reach

the

parties’

arguments

regarding

venue

under

17

CONCLUSION

18
19
20
21

For the foregoing reasons, Defendant’s Motion for Judgment of
Acquittal is DENIED as untimely and without merit.

22
23

IT IS SO ORDERED.

24
25

Dated: July 1, 2016.

26
27
28

______________/s/______________
ALKA SAGAR
UNITED STATES MAGISTRATE JUDGE
13

App. 108a

Appendix F

App. 109a

18 U.S.C. § 3237(a) provides:
Except as otherwise expressly provided by enactment of Congress, any
offense against the United States begun in one district and completed in
another, or committed in more than one district, may be inquired of and
prosecuted in any district in which such offense was begun, continued, or
completed.
Any offense involving the use of the mails, transportation in interstate
or foreign commerce, or the importation of an object or person into the
United States is a continuing offense and, except as otherwise expressly
provided by enactment of Congress, may be inquired of and prosecuted in
any district from, through, or into which such commerce, mail matter, or
imported object or person moves.
18 U.S.C. § 3238 provides:
The trial of all offenses begun or committed upon the high seas, or
elsewhere out of the jurisdiction of any particular State or district, shall
be in the district in which the offender, or any one of two or more joint
offenders, is arrested or is first brought; but if such offender or offenders
are not so arrested or brought into any district, an indictment or
information may be filed in the district of the last known residence of the
offender or of any one of two or more joint offenders, or if no such

App. 110a

residence is known the indictment or information may be filed in the
District of Columbia.
Fed. R. Crim. P. 18 provides:
Unless a statute or these rules permit otherwise, the government must
prosecute an offense in a district where the offense was committed. The
court must set the place of trial within the district with due regard for the
convenience of the defendant, any victim, and the witnesses, and the
prompt administration of justice.

App. 111a

